<html>
<title> - STRENGTHENING FEDERAL ACCESS PROGRAMS TO MEET 21ST CENTURY NEEDS: A LOOK AT TRIO AND GEAR UP</title>
<body><pre>[Senate Hearing 113-658]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-658
 
               STRENGTHENING FEDERAL ACCESS PROGRAMS TO 
                   MEET 21ST CENTURY NEEDS: A LOOK AT 
                   TRIO AND GEAR UP

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

 EXAMINING STRENGTHENING FEDERAL ACCESS PROGRAMS TO MEET 21ST CENTURY 
NEEDS, FOCUSING ON TRIO AND THE GLOBAL EDUCATION AND AWARENESS RESEARCH 
                    UNDERGRADUATE PROGRAM (GEAR UP)

                               __________

                            JANUARY 16, 2014

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
                                
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
                       U.S. GOVERNMENT PUBLISHING OFFICE
86-400 PDF                 WASHINGTON : 2015  
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cea9bea18eadbbbdbaa6aba2bee0ada1a3e0">[email&#160;protected]</a>  
     


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman
BARBARA A. MIKULSKI, Maryland
PATTY MURRAY, Washington
BERNARD SANDERS (I), Vermont
ROBERT P. CASEY, JR., Pennsylvania
KAY R. HAGAN, North Carolina
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado
SHELDON WHITEHOUSE, Rhode Island
TAMMY BALDWIN, Wisconsin
CHRISTOPHER MURPHY, Connecticut
ELIZABETH WARREN, Massachusetts

                                     LAMAR ALEXANDER, Tennessee
                                     MICHAEL B. ENZI, Wyoming
                                     RICHARD BURR, North Carolina
                                     JOHNNY ISAKSON, Georgia
                                     RAND PAUL, Kentucky
                                     ORRIN G. HATCH, Utah
                                     PAT ROBERTS, Kansas
                                     LISA MURKOWSKI, Alaska
                                     MARK KIRK, Illinois
                                     TIM SCOTT, South Carolina
                                       
           Pamela J. Smith, Staff Director and Chief Counsel
                 Lauren McFerran, Deputy Staff Director
               David P. Cleary, Republican Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                       THURSDAY, JANUARY 16, 2014

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     2
Franken, Hon, Al, a U.S. Senator from the State of Minnesota.....    28
Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina.......................................................    30
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    33
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..    34
    Prepared statement...........................................    34
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    43
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    45

                               Witnesses

Hoyler, Maureen, President of the Council for Opportunity in 
  Education, Washington, DC......................................     4
    Prepared statement...........................................     5
Giles, Scott, President and CEO of Vermont Student Assistance 
  Corporation and Member of the Board of Directors of the 
  National Council for Community and Education Partnerships, 
  Shelburne, VT..................................................     7
    Prepared statement...........................................     8
Griggs, Cornelius D., Senior Project Manager and Lead Estimator 
  of the Walsh Group, Chicago, IL................................    10
    Prepared statement...........................................    11
Sertich, Tallie, Director of Climb Upward Bound, Hibbing 
  Community College, Hibbing, MN.................................    12
    Prepared statement...........................................    13
Liang, Weiya, Director of GEAR UP, Washington Student Achievement 
  Council, Olympia, WA...........................................    14
    Prepared statement...........................................    15
Harris, Douglas N., Ph.D., Associate Professor of Economics and 
  University Endowed Chair in Public Education, Tulane 
  University, New Orleans, LA....................................    16
    Prepared statement...........................................    17
Haskins, Ron, Ph.D., Senior Fellow and Co-Director of the Center 
  on Children and Families and Budgeting for National Priorities 
  Project, Brookings Institution, Washington, DC.................    20
    Prepared statement...........................................    21

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Andrea Venezia, Associate Professor of Public Policy and 
      Administration, Associate Director of the Institute for 
      Higher Ed. Leadership & Policy, California State 
      University, Sacramento, CA.................................    50

                                 (iii)
  
    Letters:
        Senator Casey............................................    51
        Hon. Chaka Fattah, U.S. Representative from the State of 
          Pennsylvania...........................................    51



  


  STRENGTHENING FEDERAL ACCESS PROGRAMS TO MEET 21ST CENTURY NEEDS: A 
                        LOOK AT TRIO AND GEAR UP

                              ----------                              


                       THURSDAY, JANUARY 16, 2014

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Alexander, Murray, Franken, 
Baldwin, Murphy, Warren, and Burr.

                  Opening Statement of Senator Harkin

    The Chairman. This session of the Health, Education, Labor, 
and Pensions Committee will come to order. Today's roundtable 
will focus on our main Federal college access programs, TRIO 
and GEAR UP, and how they're performing in helping low-income 
students access and persist throughout post-secondary 
education. This roundtable marks our fifth event in a series to 
examine issues that we plan to address in the upcoming 
reauthorization of the Higher Education Act.
    These Federal programs that we're discussing today have a 
rich history. Through the Higher Education Act of 1965, 
Congress created the TRIO programs to ensure that low-income 
students have the preparation needed to attend post-secondary 
education. GEAR UP came later--I remember when. I was here at 
that time--and shares the same goal.
    Our review of this work couldn't come at a better time. 
Last week, we commemorated the 50th anniversary of President 
Johnson's War on Poverty and the beginning of the Great 
Society's address to Congress. There are some who claim the 
Great Society was a great failure, and I fundamentally disagree 
with that view. Thanks to these programs, millions of students 
have been able to aspire to a post-secondary education and to 
achieve that dream.
    However, it is crucial that we take the time to reflect on 
the intent and history of these programs so we can continue to 
build on their strengths to improve them for the future. 
Obviously, things are changing in higher education. So we'll 
have opportunity to do so today and in the upcoming 
reauthorization.
    We all know that many low-income students need critical 
supports when it comes to college preparation. We all know that 
there is far more work to be done if we're going to meet 
President Obama's goal of having the highest proportion of 
college graduates in the world by 2020. The question becomes: 
What should the Federal role be to encourage this? How can we 
best utilize the limited Federal dollars we have to promote 
college preparation?
    As I've stated in past hearings, the need for shared 
responsibility regarding higher education funding couldn't be 
greater. How can all stakeholders work together to enhance and 
leverage these Federal higher education dollars? How can we 
ensure that the work being done by these grants is most 
effective?
    Today, we will hear from key stakeholders in the college 
access community: advocates, researchers, program operators, 
and a former student. I am eager to hear from each of them on 
how we can strengthen our efforts to equip low-income students 
with the tools they need to attain a quality post-secondary 
degree.
    I expect our roundtable participants will provide their 
perspectives on these programs as well as recommendations for 
how they could be improved. The goal today is to have an open 
discussion that informs the ongoing debate on the 
reauthorization of the Higher Education Act. I thank all of our 
participants for being with us today.
    This kind of a setting--this roundtable discussion was, I 
think, first started by Senator Enzi when he was chair of this 
committee. It proved to be valuable in terms of having more of 
an open discussion than just kind of a formal type hearing. So 
we can get more engaged in just sort of a back-and-forth, and 
I'll go into the limited rules we have on that after, of 
course, I turn to Senator Alexander for his opening statement.

                 Opening Statement of Senator Alexander

    Senator Alexander. Thanks, Mr. Chairman. I was trying to 
get a total number of Federal dollars spent on higher 
education, and I may or may not have it.
    The Chairman. Good luck.
    Senator Alexander. I look forward to this. I thank the 
witnesses for coming. This is an important effort, and I have 
complimented Chairman Harkin both here and on other occasions 
for the way he has conducted these hearings on higher 
education. We've had terrific witnesses. We've learned from 
them, and we look forward to reauthorizing the Higher Education 
Act.
    My own view is that since we've reauthorized it eight times 
since 1965 that this would be a good time to start from 
scratch, at least for part of the Higher Education Act, and 
here's the reason why. What happens here is that every time we 
do this, we have well-intentioned ideas. So we pass a law with 
some new well-intentioned ideas, and over the next few years, 
here comes more well-intentioned regulations to help implement 
the well-intentioned ideas.
    And then the next time around, the same and the same and 
the same, and we have a stack of regulations now that's twice 
as tall as I am. It's nobody's fault, really. We just haven't 
weeded the garden before we started over. So I'm trying to be 
very basic in my questions, and I think the way to do that with 
these six programs is to ask the question--we spend about $1.1 
billion on these six programs. I'm told that the total amount 
of funding for higher education is about $37 billion. That 
doesn't count the $110 billion or so that we loan every year.
    So $1.1 billion of $37 billion, if that's the right figure, 
is a significant amount of money. It's enough money to create a 
couple of hundred thousand new Pell grants. That would permit 
us to double the number of Pell grants in a State like 
Tennessee. So are we spending that $1.1 billion most 
effectively as a way to help low-income students whose parents 
haven't gone to college to have an opportunity to go to 
college?
    We heard testimony at an earlier hearing here that if we 
just simplified the student aid program, a lot more students 
would go to college. Should we take this $1.1 billion and turn 
it into 180,000 or 200,000 Pell grants for students? That would 
be one option.
    The world has changed a lot since 1965. Then, we had 6 
million students enrolled in post-secondary education. Today, 
it's 21 million students. Then, 51 percent of high school 
students went to college. Now, 66 percent do. Students didn't 
receive Pell grants until 1973, and 176,000 received Pell 
grants that year. Now, 9.1 million students do. And we're in an 
age when it's easier to communicate with students.
    So we should ask the question: If we took the advice of 
those who testified, Senator Harkin, before our committee--they 
said we should change the student aid program and let juniors 
in high school know then the amount of money they were able to 
get, and then they could shop around for college, rather than 
do it in the reverse way. Now, we can communicate with eighth 
graders through the social media. We couldn't do that in 1965 
or some time ago. So are we spending this money in the most 
effective way?
    I look forward to your advice and suggestions, and I 
appreciate the kind of hearing that the chairman has called, 
which permits more of a conversation than a formal hearing.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander. As you said, 
are we spending the money in the most effective way, and what 
changes do we need to make? That is the right question.
    Let me just briefly introduce our witnesses here today. 
I'll go from left to right. Ms. Maureen Hoyler is president of 
the Council for Opportunity in Education, a nonprofit 
organization that provides professional development program 
improvement and advocacy for nearly 2,800 federally funded 
college opportunity programs at more than 1,000 colleges and 
universities nationwide.
    Next is Mr. Scott Giles, board member of the National 
Council for Community and Education Partnerships and president 
and CEO of Vermont Student Assistance Corporation, which houses 
the State's GEAR UP and TRIO grants. I'm told that you worked 
here some time ago when Senator Jeffords was chair of this very 
committee. Welcome back.
    Next is Mr. Cornelius Griggs, a former Talent Search 
student, as well as a McNair Program scholar. He currently 
serves as senior project manager and lead estimator for the 
Walsh Group, a construction company based in Chicago. He 
received his bachelor's degree from Chicago State University 
and a master's from the Illinois Institute of Technology.
    Next we have Ms. Tallie Sertich, a native Iowan and the 
TRIO Upward Bound director at Hibbing Community College in 
Minnesota, working with low-income and rural communities. She 
is president-elect of the Minnesota TRIO Board, and earned her 
bachelor's degree at the University of Iowa. Thank you for 
being here.
    Next would be Weiya Liang, director of the Washington State 
GEAR UP at the Washington Student Achievement Council. He has 
worked in the college access and student support field for over 
20 years and has been a leader in GEAR UP since Congress 
created the program.
    Next we have Dr. Douglas Harris. Dr. Harris is an associate 
professor of economics, University Endowed Chair in Public 
Education, and founder and director of the Education Research 
Alliance for New Orleans at Tulane University. With a grant 
from the U.S. Department of Education's Institute for Education 
Sciences, Dr. Harris is leading a large randomized trial of, 
``a Promise College Scholarship'' in Milwaukee Public Schools.
    Our final panelist is Dr. Ron Haskins. Dr. Haskins is a 
senior fellow in the Economics Studies Program and co-director 
of the Center on Children and Families at the Brookings 
Institution, as well as a Senior Consultant at the Annie E. 
Casey Foundation in Baltimore.
    He has served in the White House as Senior Advisor to the 
President for Welfare Policy, and, I guess, also served in the 
Congress on the House Ways and Means Committee. Is that what my 
notes say--in the House Ways and Means Committee. So we welcome 
him back. He holds a degree in history and a master's degree 
and a Ph.D. from the University of North Carolina at Chapel 
Hill.
    Thank you all for being here today and sharing your 
expertise. Before we start, I'll explain a little bit of this 
format. I'm going to ask each of you to give 1 or 2 minutes--
just a very short opening remark. After that, I'll start the 
discussion by asking a question of one of the panelists. That 
person will answer, and if one of the panelists wants to 
respond to that question as well or to something that another 
panelist has said, take your name tag and turn it up. I'll have 
my staff keep track of who turned theirs up first, and we'll 
work it that way.
    If someone says something and you want to respond, we'll 
try to get some kind of a dialog going that way. Let me just 
say that we'll work to keep the discussion flowing while being 
respectful of one another, and I hope we'll have a good in-
depth conversation on this issue. You all have statements which 
I went over just last evening, and they'll all be made a part 
of the record in their entirety.
    With that, what I'd like to do is start with Ms. Hoyler and 
then work down. And like I said, I can't give everybody 5 
minutes. So if you'd just give us your basic one shot on what 
you think we ought to be looking at on this--in say, 3 minutes 
or so.
    Ms. Hoyler.

   STATEMENT OF MAUREEN HOYLER, PRESIDENT OF THE COUNCIL FOR 
            OPPORTUNITY IN EDUCATION, WASHINGTON, DC

    Ms. Hoyler. Thank you, Senator Harkin. Chairman Harkin, 
Senator Alexander, and members of the committee, I deeply 
appreciate this opportunity to participate in this roundtable. 
The Council for Opportunity in Education's 900 member colleges 
and community agencies are committed to increasing college 
access and success for low-income students, first-generation 
students, and students with disabilities.
    We view the Federal support for TRIO and GEAR UP as a 
necessary component of our efforts. More than 9,000 TRIO and 
GEAR UP educators are on the front lines of our country's 
continuing efforts to expand college access and success and are 
particularly appreciative of your willingness to consider our 
views as you prepare for the reauthorization of the Higher 
Education Act.
    We recognize that as a country, we are far from realizing 
the goals of the Act, and we are deeply committed to improving 
TRIO and GEAR UP so that we as a nation can come closer to 
realizing these goals. Over the past year, each of our State 
and regional associations, all of those associations that are 
affiliated with COE, have sought input from our members 
regarding our recommendations.
    In general, these recommendations fall into six categories. 
Reinforce the historic connection between student financial 
assistance and college access and success. In 1965, Congress 
recognized that students faced two sets of obstacles to 
succeeding in college. One set is financial. The other set is 
nonfinancial--lack of information, lack of engagement in the 
academic progress, lack of appropriate academic preparation, 
lack of peer and family support. Those two sets of obstacles 
continue to plague students today, and those two sets of 
obstacles continue to need to be addressed.
    Foster collaboration with State, institutional, and 
privately funded college access and success programs. The 
Federal Government can't do it alone. It is a multifaceted, 
complex process.
    Continue the authorization of evaluations within the TRIO 
chapter and maintain their focus on program improvement; 
protect congressional intent in the TRIO funding process; 
reduce regulatory burden where it detracts from an 
institution's ability to serve students; and, finally, 
strengthen efforts to serve special populations in TRIO such as 
homeless students or students who are in the foster care system 
or aged out of the foster care system. But we could also look 
at students who are preparing for the STEM disciplines or other 
disciplines, that it is hard to prepare for coming from 
particular schools.
    Thank you very much for considering this.
    [The prepared statement of Ms. Hoyler follows:]
                  Prepared Statement of Maureen Hoyler
    Chairman Harkin, Ranking Member Alexander, and members of the HELP 
Committee, I deeply appreciate this opportunity to participate in 
today's roundtable. The Council for Opportunity in Education's (COE's) 
900-member colleges and community agencies are committed to increasing 
college access and success for low-income students, first-generation 
college students, and students with disabilities. They view the Federal 
support for TRIO and GEAR UP as a necessary component of their efforts. 
More than 9,000 TRIO and GEAR UP educators are on the front lines of 
our country's continuing efforts to expand college access and success, 
and they are particularly appreciative of your willingness to consider 
their views as you prepare for the reauthorization of the Higher 
Education Act. They recognize that as a country we are far from 
realizing the very ambitious goals of the Act, and are deeply committed 
to improving TRIO and GEAR UP so that we as a nation can come closer to 
realizing those goals.
    Over the past year, each of the State and regional associations 
affiliated with COE has sought input from its members regarding our 
recommendations. In general, these recommendations fall into six 
categories, which I will discuss in succession.

    <bullet> Reinforce the historic connection between student 
financial assistance and college access and success programs. As early 
as 1965, Congress recognized that low-income students faced two sets of 
obstacles in successfully preparing for, enrolling in and graduating 
from college. The first set of obstacles is financial. Today, the 
Federal Government invests well over $140 billion annually in higher 
education grants, loans, work-study programs, and tax credits so that 
students and families are able to address these financial obstacles. 
But for many students and families, the non-financial obstacles--lack 
of information, limitations in academic preparation, lack of peer and 
family support, and other factors--present equally troubling barriers. 
The Federal TRIO and GEAR UP programs assist students and families in 
recognizing and overcoming these obstacles and in a very real sense 
constitute an insurance policy for the much-larger investment in 
student financial aid.
    <bullet> Foster collaboration with State, institutional and 
privately funded college access and success efforts. Just as student 
financial assistance for low-income students requires a package made up 
of grants, loans and work-study support most often from Federal, State 
and institutional sources, State, institutional and private support for 
college access and success programming should be encouraged. Privately 
funded college access and success partners are working collaboratively 
with TRIO in many cities and States including Colorado, Connecticut, 
Kentucky, and Pennsylvania. COE has introduced one such model with 
support from the GE Foundation. Any barriers to collaboration among 
such programs should be removed, and where possible vehicles should be 
made available to introduce more broadly in institutions, agencies and 
schools the practices first utilized in TRIO and GEAR UP. However, 
there is a fundamental error in the temptation to view programs such as 
TRIO and GEAR UP as demonstration programs. The Federal role in 
assuring equal opportunity in higher education is critical; the need 
for Federal support and leadership in this area remains as great today 
as it was in 1965.
    <bullet> Continue the authorization of evaluations within the TRIO 
subpart and maintain their focus on program improvement. The TRIO 
community understands the very real obstacles that low-income students, 
first-generation students and students with disabilities face in 
preparing for and graduating from college. We want to improve our 
efforts--but we also want to build on our successes.
    <bullet> Protect congressional intent in the TRIO funding process. 
The current TRIO legislation mandates that TRIO applications be funded 
in rank order based on scores on the application and the institution's 
success in meeting previously-agreed-upon outcomes defined by Congress. 
In several of the last competitions, the Administration has introduced 
competitive preference priorities, which had the effect of giving 
institutions and agencies in individual States or regions preference 
over in institutions and agencies in other States or regions. COE 
recommends restricting the Administration's ability to introduce such 
priorities without congressional consent.
    <bullet> Reduce regulatory burden where it detracts from an 
institution's ability to serve students. Current legislation requires 
that institutions and agencies sponsoring TRIO programs track students 
for as many as 10 to 12 years following the last provision of service. 
In some TRIO programs, such tracking is definitely cost-effective. In 
others, particularly programs such as Talent Search, where the cost per 
student is less than $450 and the imposition of this requirement can 
involve tracking thousands of students, it may interfere with service 
delivery. We would ask the committee to revisit these requirements.
    <bullet> Strengthen efforts to serve special populations in TRIO. A 
number of members of this committee have introduced legislation that 
speaks to TRIO's effectiveness in serving students in foster care or 
aging out of the foster care system, as well as students who are 
homeless. Our members are particularly concerned that the language 
included in the legislation promotes the provision of long-term, 
continuing services to students from these groups, and we look forward 
to working with the committee on this issue.

    Thank you very much for considering these concerns.

    The Chairman. Thank you, Ms. Hoyler. Thanks for being so 
succinct.
    Mr. Giles.

STATEMENT OF SCOTT GILES, PRESIDENT AND CEO OF VERMONT STUDENT 
ASSISTANCE CORPORATION AND MEMBER OF THE BOARD OF DIRECTORS OF 
THE NATIONAL COUNCIL FOR COMMUNITY AND EDUCATION PARTNERSHIPS, 
                         SHELBURNE, VT

    Mr. Giles. Thank you, Chairman Harkin, Senator Alexander, 
and members of the committee for taking the time out of what I 
know from experience are significantly demanding schedules to 
devote your time to this critically important issue. I'd like 
to also take this moment to thank my own home State Senator, 
Senator Sanders, who has been a very, very strong advocate for 
the disadvantaged in the United States and in Vermont, in 
particular, and for our programs.
    Today, I'm wearing two or maybe even three hats. I am 
representing Vermont, where we house both a Talent Search and 
an EOC program and a GEAR UP program. I am also speaking as a 
board member of NCCEP, the national association that represents 
all of the many GEAR UP grantees across the country.
    To set the table for a couple of points that I'd like to 
make, I'd like to just say something briefly about the State 
agency that I work for, because I think it gives us a unique 
and distinctive view on the question that's in front of you. We 
actually have a research arm. We conduct research on access in 
Vermont.
    And as I indicated before, we administer the Talent Search 
program. We've had Talent Search since 1969, EOC since the 
early 1980s, and then one of the first GEAR UP grants. We 
administer all of the State financial aid programs, the State 
grant programs, the scholarship programs.
    We are nationally recognized for the outcomes that we've 
produced with those programs. And one of the really important 
things that we try to do is we use data to drive program 
improvement, which is something that I think is critically 
important to this process.
    In reflecting on the question that Senator Alexander 
raised--if we were to start from scratch, what is the right 
investment that we ought to make--when my organization was 
created in 1965, we were given two charges. One was to ensure 
that all Vermonters had access to the information that they 
needed to make good, solid education and training choices after 
high school. The second piece was to make sure that they had 
all of the financial aid that they needed in order to be able 
to achieve those goals.
    As we have taken a look at the work that we have done over 
the last 30 years, we have come to more fully appreciate the 
critical role that the information and counseling side of that 
equation plays. In fact, I will say from an organizational 
perspective that we've begun to believe, based on the data that 
we're seeing, the results that we're seeing for our low-income 
students, that we have perhaps kind of created an imbalance 
where we focus most of our efforts on the financial aid side 
and too little of our resources on the career and education 
counseling.
    To put this in context, I'd like to just pose a thought 
experiment for you, and that is to think back on your own 
experiences and ask yourself when and why you decided that you 
were going to pursue post-secondary education yourself. What I 
will tell you is that if your parents had a post-secondary 
education, you'll answer--and we survey every high school 
senior in Vermont every 2 years on aspirations. They will tell 
you some version of they always knew.
    Why did they always know? It's because those parents had 
embedded in the conversations at home expectations regarding 
education that included some education or training after high 
school. When we talked to students that didn't have the benefit 
of a parent with that educational background, invariably, those 
that succeed had an adult that took a particular interest in 
them and sparked their interest or curiosity.
    One of the really troubling things that we also discover is 
that most of them made their decision not to pursue where they 
consciously--or I should reverse it and say they made the 
decision that they wanted to pursue education somewhere around 
their junior year in high school. One of the challenges that 
that poses--because we also know from the research that the 
math that you took your freshman and sophomore years is one of 
the strongest indicators as to whether or not you will be able 
to pursue and succeed in post-secondary education.
    Those students that have made those decisions late have 
also largely made academic choices in the early part of their 
high school career that create additional challenges for them. 
So part of what I want to suggest is that no amount of aid or 
the consumer information that we all think is critically 
important to enable students and parents to become good 
consumers of education will succeed unless we are able to 
provide counseling and support to those first-generation low-
income students who need it, in part because they don't know 
how to access it.
    I think the second thing I'd like to say as part of this 
thought experiment, really quickly, is that we----
    The Chairman. Please sum up.
    Mr. Giles. What I'll do is just simply stop and say that we 
have a series of recommendations with regard to improvements in 
the program. Very quickly, No. 1, continue to work on improved 
program assessment; No. 2, for all the programs across the 
country, strengthen the training so that the grant recipients 
in both GEAR UP and TRIO have the skills that they need to use 
data to drive program improvement within their programs; reduce 
the obstacles to data sharing across the K-12 and higher 
education area and strengthen dissemination.
    [The prepared statement of Mr. Giles follows:]
                   Prepared Statement of Scott Giles
    Good morning. I want to thank the committee, Chairman Harkin and 
Senator Alexander for the opportunity to discuss this pressing need for 
access to post-secondary education for low- and middle-income students.
    I also want to thank the Honorable Senator Bernie Sanders, of my 
home State of Vermont, for his continuing focus and heartfelt 
dedication to Vermonters as they pursue their educational and training 
goals after high school. Senator Sanders has been especially helpful 
and supportive of our mission at the Vermont Student Assistance 
Corporation. The Senator is a staunch advocate of making sure all 
Vermonters have equal access to education and other essential services. 
I am grateful for his leadership and support.
    We in Vermont proudly consider ourselves to be the ``education 
state'' and take great pride in both our innovations and our national 
leadership. From Senator Morrill of the 1st and 2d Land Grant Acts, to 
Senator Stafford whose name is attached to Federal student loans, we 
have elected leaders who have brought our passion for equal access to 
education to the Nation's Capital.
    Vermont was one of the handful of pioneers of the National Early 
Intervention Scholarship Program (NEISP) that in 1998 became the GEAR 
UP program under the leadership of then Chairman Jim Jeffords and 
Representative Chaka Fattah.
    My name is Scott Giles and I am president and CEO of VSAC. Even 
before joining VSAC in 2003, I spent much of my career in public 
service, primarily focused on Federal finance and higher education 
policy. I have served as chairman of the Federal Advisory Committee on 
Student Financial Assistance and currently am on the board of the 
National Council for Community and Education Partnerships, the 
nonprofit, nonpartisan organization working to increase access to 
higher education for economically disadvantaged students.
    Additionally, I have served as Deputy Chief of Staff of the House 
Committee on Science. In that role I advised the chairman on education, 
space and research policy and managed the Subcommittees on Research and 
Space and Aeronautics.
    Here in the Senate, I served on the staff of this committee--Senate 
Committee on Health, Education, Labor, and Pensions--where I was 
honored to advise the Chairman on budget, education and research 
policy. It's nice to be back.
    Briefly, let me tell you about VSAC. The Vermont Student Assistance 
Corporation is a public, nonprofit corporation created by the Vermont 
Legislature in 1965 to help Vermonters plan and pay for education or 
training beyond high school.
    VSAC is unique among State-based agencies because we provide, under 
one roof, a full range of services aimed at helping Vermonters navigate 
the complexity of educational choices and how to finance those plans. 
VSAC has a rich history of providing career and education planning to 
Vermont students and their families, particularly those who are low-
income or the first in their family to continue on to post-secondary 
education.
    In fact, VSAC has been administering the Talent Search program 
since 1969 and we have the only statewide program in the Nation. We 
began the Educational Opportunity Center program for adults in 1976. 
Both programs, as you know, are made possible because of TRiO funding.
    GEAR UP in Vermont began in 1999 and we're celebrating 15 years in 
2014.
    As steadfast advocates for Vermont students and families, VSAC is 
always evolving and adapting to serve Vermonters' needs for education 
and training after high school. We are proud of the role we play in 
changing lives during changing times.
    Most of the focus lately about pursuing education beyond high 
school has been about money. But financial resources are only half the 
challenge that students and families face.
    To try to understand this, think back on your own personal journey. 
When did you decide you were going to pursue education after high 
school? Who guided you?
    Our research shows that students of parents with education after 
high school will report that they ``always knew.'' Students of parents 
without education after high school report phases--some decide before 
eighth grade. Many, however, don't seriously aspire until their junior 
year--long after ninth- and tenth-grade course choices have put them in 
an academic hole.
    We know that a high school diploma is necessary but not sufficient 
to enter and remain in the middle class. Our education system, however, 
is still structured around an old agrarian model.
    I would like to invite you to engage in a thought experiment. What 
would our policies look like if we truly believed in a PK-16 education 
model and the transition between high school and post-high school 
education or training programs had the purpose and certainty of the 
transition from middle school to high school?
    Too many students and families do not know how to select an 
education or training program, apply for admission, or apply for 
financial aid.
    We are all aware that the United States needs an educated workforce 
to remain competitive in the global economy. And Vermont students--just 
like those in the rest of the Nation--need to acquire education or 
training after high school in order to thrive and succeed.
    You may be familiar with the research from Anthony Carnevale at 
Georgetown University's Center on Education and the Workforce. As he 
succinctly points out, the data is clear.
    Having a robust generation of postsecondary-educated workers is the 
key to reversing and stopping the growth of income inequality.
    In Vermont, I believe the evidence is positive: TRiO and GEAR UP 
programs are working. But I also will share some suggestions for 
enhancing the delivery of TRiO and GEAR UP services.
    So, how are Vermont GEAR UP students doing? Quite well.

    <bullet> In the last year, we assisted more than 2,500 students in 
54 schools. Out of this priority group, the high school graduation rate 
exceeded the U.S. rate by 20 percent. And, this GEAR UP group also 
exceeded the statewide graduation rate by 10 percent.
    <bullet> This same group also went on to post-secondary enrollment 
at a rate that exceeds the Nation by 17 percent and by more than 23 
percent in Vermont.

    But we didn't stop there. We have been following GEAR UP's progress 
in post-secondary education for the past 7 years with GUIDE, or 
``Giving Undergraduates Important Direction in their Education'' 
program. GUIDE scholars receive on-campus and online services to help 
them successfully make the transition.
    The program is relatively new, but 75 percent of survey respondents 
re-enrolled for sophomore year.
    Turning to Talent Search, we reached more than 1,000 middle- and 
high-school students, offering individual and group meetings to address 
academic skills, course planning, college exploration and planning for 
future education and financial needs.
    Of these Talent Search students, 99 percent graduated from high 
school and 81 percent enrolled in post-secondary programs.
    To conclude, these efforts make a difference in Vermonters' lives, 
but I do believe there are ways we can improve.
    While the TRiO and GEAR UP programs have unique strengths, they 
could benefit from enhanced collaboration of programmatic elements. At 
VSAC, we house the programs with overlapping staff, which improves 
cooperation.
    The goals are similar, the desired outcomes are complimentary but 
both could benefit from strengthening certain aspects:

    <bullet> Improved program assessment;
    <bullet> Provide training to program participants to enable them to 
use data to drive improvement in their programs;
    <bullet> Reduce the legal and regulatory obstacles to sharing data 
between high schools, GEAR UP and Talent Search programs, and post-
secondary education and training programs in order to support students 
and build more effective programs;
    <bullet> Strengthen the dissemination model so that successful 
projects and programs can easily be replicated across the country and 
in both programs;
    <bullet> GEAR UP's cohort model is experimenting with ways to build 
college-going cultures within middle school and high schools. Embed it 
in both higher education policy and elementary and secondary education 
policy.

    I want to turn back to the thought experiment I asked you to engage 
earlier in my testimony. I believe that every student needs education 
or training after high school. I believe that no student should 
graduate from high school without a career and education plan that 
includes a resume, a completed FAFSA, and an application to the 
education or training program that will enable them to achieve their 
personal goals.
    Thank you for your time today and I welcome your questions.

    The Chairman. Thank you, Mr. Giles.
    Mr. Griggs, welcome and please proceed.

 STATEMENT OF CORNELIUS D. GRIGGS, SENIOR PROJECT MANAGER AND 
         LEAD ESTIMATOR OF THE WALSH GROUP, CHICAGO, IL

    Mr. Griggs. Good morning, Chairman Harkin, members of the 
committee. Thank you for having me this morning.
    Growing up as a ward of the State, my introduction to the 
TRIO programs occurred during my sophomore year of high school 
on the northwest side of Chicago. I was introduced to Mr. 
Bernard Clay and Talent Search during an afterschool learning 
summit. From that point, my relationship with the organization 
would grow, and Mr. Clay would take me under his wing as he did 
with many other youth. He lectured me on the educational 
opportunities that were at my disposal and began to steer me in 
the direction of colleges and universities. Mr. Clay was the 
first individual to tell me that I had to take the ACT or SAT 
to get into college, unfortunate but true.
    Through Talent Search, I was afforded the opportunity to 
visit colleges and universities across the State, participate 
in summer youth programs, and gain an understanding of what 
college is all about before stepping foot on the campus. But 
like many others who grew up in the gang-infested neighborhoods 
of Chicago, going to college was a far stretch of the 
imagination. As a young African-American male in this 
environment, simply surviving was a celebration within itself.
    TRIO programs like Talent Search and McNair, which I joined 
at Chicago State University, have made it possible for me and 
many other alumni to be successful in ways we never saw 
possible. It's been 15 years since I graduated from high school 
and 9 years since I completed my undergraduate studies at 
Chicago State University.
    In that timeframe, I've served 10 years in the U.S. Army 
Reserve, including a tour in Afghanistan where I was awarded 
the Army Accommodation Medal for service during a foreign 
conflict. I've completed a master's at the Illinois Institute 
of Technology, and I'm pursuing my second master's at 
Northwestern University. I've assisted in the development of 
the City College of Chicago's first construction management 
program, an associate of science degree, primarily serving 
minority and disadvantaged students across the city of Chicago.
    In my primary role, I work as a senior project manager and 
lead estimator for the 14th largest general contractor in the 
United States. But my most rewarding duty is fulfilling my 
responsibility as a single parent to my 9-year-old daughter.
    For nearly 50 years, TRIO programs have changed the lives 
of countless individuals across this great country. My 
accomplishments thus far would not be possible if TRIO programs 
didn't exist. Please understand that our work cannot stop, 
because there are others who need the same inspiration, 
guidance, and access that I was afforded.
    Thank you.
    [The prepared statement of Mr. Griggs follows:]
               Prepared Statement of Cornelius D. Griggs
    My journey to this podium has been one filled with obstacles and 
challenges, but in the great words of Dr. Martin Luther King, Jr., 
``The ultimate measure of a man is not where he stands in moments of 
comfort and convenience, but where he stands at times of challenge and 
controversy.''
    Challenge and Controversy was a normal part of my life at an early 
age. At the age of 9, my mother had a very difficult decision to place 
me under the care of the department of children and family services. I 
spent 9 years of my life, from the age of 9 until the age of 18, 
bouncing between 3 different foster homes from Cabrini Green Housing 
Projects to Robert Taylor Homes with a brief stint at a local group 
home on the Westside of Chicago.
    Growing up as a ward of the State, my first introduction to the 
Trio programs occurred during my sophomore year of high school at 
Steinmetz Academic Centre located on the northwest side of Chicago. I 
was introduced to Mr. Bernard Clay and Introspect Youth Services during 
an afterschool learning summit. From that point, my relationship with 
the organization would grow and Mr. Clay would take me under his wing 
as he did with many of the youth that walked through his door. He began 
to lecture me on the educational opportunities that were at my disposal 
and began to steer me in the direction of colleges and universities. 
Mr. Clay was the first individual to inform me that you had to take the 
ACT or SAT to get into college, unfortunate but true.
    Through Introspect, I was afforded the opportunity to visit 
colleges and universities across the State, participate in summer youth 
programs and gain an understanding of what college was all about before 
ever stepping foot on a campus as a student. But like many others who 
grew up in the gang-infested neighborhoods of Chicago, going to college 
was a far stretch of the imagination. As a young African-American male, 
simply surviving was a celebration within itself.
    After choosing college over the Marine Corps in the fall of 1999, I 
enrolled into Chicago State University to pursue a dual degree in 
Criminal Justice and Computer Science. It was during my time at Chicago 
State University that I was introduced to another Trio program called 
McNair. The McNair Program afforded me the opportunity to participate 
in educational and career-focused conferences across the country. The 
program would later prepare me for my graduate studies at the Illinois 
Institute of Technology.
    Trio programs and organizations like McNair and Introspect have 
made it possible for me and many other Alumni to be successful. It's 
been 15 years since I graduated from high school and 9 years since I 
completed my undergraduate's studies. In that timeframe,

    <bullet> I served 10 years in the U.S. Army Reserves including a 
tour in Afghanistan where I was awarded the Army Accommodation Medal 
for my service during a foreign conflict.
    <bullet> Completed a Bachelors of Science from Chicago State 
University and a Masters from the Illinois Institute of Technology in 
Industrial Technology with a concentration in Construction Management.
    <bullet> Working toward my 2d Master's degree at Northwestern 
University in Real Estate Development.
    <bullet> Assisted in the chartering of the city colleges of 
Chicago's first Construction Management Program in 2009, primarily 
serving minority and disadvantage students across the city of Chicago 
(In the Spring of 2013, we graduated our first class of 6 students, 5 
of which have went on to 4-year institutions on full scholarships).
    <bullet> And working as a Project Manager for the 12 largest 
General Contractors in the United States. I have had the opportunity to 
lead teams that have built such projects as The Tides, a 52-Story 
$112MM high-rise in downtown Chicago, the historic Dunbar High School, 
a $10MM renovation in the Bronzeville area of Chicago and Altgeld 
Gardens, a $35MM, 440 unit renovation for the Chicago Housing 
Authority.

    But, my most rewarding duty is fulfilling my responsibilities as a 
single parent to my 9-year-old daughter Kyla Kamora Griggs.
    For nearly 50 years, Trio programs have changed the lives of 
countless individuals across our great country. My accomplishments, 
thus far, would not be possible if it were not for the opportunities 
that the Trio Programs provided. I understand that our work cannot stop 
because there are others who need the same inspiration, guidance, and 
access that I was afforded.
    I close with a quote from LTC Washington, my commander during 
operation enduring freedom, moments before our plane landed at Bagram 
Air force Base in Bagram, Afghanistan in February 2003. He looked into 
the eyes of his troops and stated, ``If you wait until you can do 
everything for everybody, instead of one-thing for somebody, you'll end 
up doing nothing for nobody.'' The words have inspired me to no longer 
be ashamed of my early challenges but use them as the vehicle to 
initiate change.
    Thank you and God Bless.

    The Chairman. Thank you very much, Mr. Griggs.
    Ms. Sertich.

 STATEMENT OF TALLIE SERTICH, DIRECTOR OF CLIMB UPWARD BOUND, 
             HIBBING COMMUNITY COLLEGE, HIBBING, MN

    Ms. Sertich. Thank you, Senator Harkin. It's an honor to be 
here. As the Hibbing Community College TRIO Upward Bound 
director and the Minnesota TRIO Association president-elect, 
I'm proud to speak for the low-income, first-generation TRIO 
students in my State, and I'm happy to share the ways in which 
TRIO programs impact students in rural areas such as the 
Minnesota Iron Range.
    Advances in technology now demand higher degrees. TRIO 
programs provide participants with the vision and the tools to 
pursue college degrees that meet new employment standards and 
allow students to be competitive in the job market. One Iron 
Range Upward Bound student who exemplifies the ripple effect 
that TRIO programs have is Tony Ellis, who joined the Itasca 
Community College Upward Bound program in high school and went 
on to earn an engineering degree from the University of 
Minnesota Duluth.
    He is now Lead Engineer at Essar Steel, a new mining 
company on the Iron Range. His younger brother also joined 
Upward Bound and earned his BA at Mankato State University. 
Their mother also followed suit and is now working on her BA. 
Generations of this family and thousands of other TRIO alumni 
families will now earn higher wages, provide stable homes, and 
become productive, contributing citizens to the regional 
economy thanks to TRIO programs.
    Our TRIO students encounter challenges unique to living in 
a rural low-income region. Students often do not have access to 
technology at home or even transportation. Access to colleges 
in rural areas is a massive barrier for students. On the Iron 
Range, the closest universities are 75 to 200 miles away. These 
students may never dream of attaining a bachelor's degree 
because they've never set foot on a university campus, let 
alone know how to prepare for and apply to such an institution.
    TRIO programs provide critical services such as tutoring, 
academic advising, financial literacy, college visits, college 
entrance exam preparation, supplemental instruction, assistance 
in filling out college and financial aid applications, and 
career exploration. But, possibly, the most impactful skills 
that TRIO programs teach students are how to identify their 
resources, advocate for themselves, and take advantage of every 
possible opportunity in their education.
    TRIO personnel can educate college administration, faculty, 
and student services staff to the specific needs of our 
students. They are critical advocates for low-income, first-
generation students and are essential resources to colleges as 
these institutions learn how to better recruit for and 
successfully serve low-income, first-generation students.
    Ultimately, TRIO programs make tremendous strides in 
providing equal college access to low-income, first-generation 
students. Providing equal college access to rural students 
betters the whole community.
    Thank you.
    [The prepared statement of Ms. Sertich follows:]
                  Prepared Statement of Tallie Sertich
    As the Hibbing Community College TRIO Upward Bound Director, and as 
the MN TRIO Association President-Elect, I am proud to have the 
opportunity to speak for the low-income, first-generation TRIO students 
in Minnesota. In particular, I am happy to discuss the ways in which 
TRIO programs impact students in rural areas such as the Minnesota Iron 
Range, where Hibbing Community College is located.
    The Iron Range region of Minnesota is blessed with natural 
resources that once traditionally afforded well-paying, yet low-skill 
jobs in the mining industry that only required a high school diploma. 
Advances in technology now demand higher educational requirements for 
regional job opportunities. TRIO programs provide participants with the 
vision and tools to pursue post-secondary education levels that meet 
new employment standards in the region and allow students to be 
competitive in today's global job market.
    The TRIO programs in the region provide critical services to 
students such as tutoring, academic advising, financial literacy, 
college visits, college entrance exam preparation, supplemental 
instruction, assistance in filling out college and scholarship 
applications as well as the FAFSA, and career exploration including job 
shadowing and mentors.
    I'd like to tell you about one northeastern Minnesota Upward Bound 
student who exemplifies the ripple effect that TRIO programs have. Tony 
Ellis joined the Itasca Community College Upward Bound program in high 
school and went on to earn an engineering degree from the University of 
Minnesota Duluth. He is now Lead Engineer at Essar Steel, a new mining 
company on the Iron Range. His younger brother also joined Upward Bound 
and earned his BA at Mankato State University. Their mother also 
followed suit and is now working on her BA. Generations of this family 
and hundreds of other TRIO alumni families will now earn higher wages, 
provide stable homes, and become productive, contributing citizens to 
the regional economy thanks to rural TRIO programs in northeastern 
Minnesota.
    Northeastern Minnesota TRIO students encounter challenges unique to 
living in a rural, low-income region. Students often do not have 
reliable personal transportation and public transportation is nearly 
non-existent. Students in rural areas also face obstacles with the lack 
of access to technology. Many low income, rural students do not have 
Internet access or even computers at home.
    Not only do TRIO programs provide the academic services I discussed 
earlier, but TRIO programs also transport students to important 
academic activities and provide computer availability. But possibly the 
most impactful skills that TRIO programs teach students are how to 
identify their resources, advocate for themselves, and take advantage 
of every possible opportunity in their education. These skills help 
students problem-solve when they cannot find a ride to an ACT exam or 
when their dial-up Internet connection doesn't work at their rural 
home.
    Access to post-secondary institutions in rural areas is a massive 
barrier for students to pursue degrees higher than an Associate's. On 
the Iron Range, for example, the closest universities are 75 to 200 
miles away. TRIO families do not have the time or resources to visit 
distant colleges. Without TRIO programs these students may never dream 
of attaining a Bachelor's degree because they have never had the 
opportunity to step foot on a university campus, let alone know how to 
prepare for and apply to such an institution.
    TRIO programs are critical advocates for low-income, first-
generation students on college campuses. TRIO personnel can educate and 
alert college administration, faculty, and student services staff to 
the specific needs of these students. Ultimately, TRIO programs are 
essential resources to colleges as these institutions learn how to 
better recruit for and successfully serve low-income, first-generation 
students.
    Simply put, TRIO programs make truly tremendous strides in 
providing equal post-secondary educational opportunities to low-income, 
first-generation students. Providing equal college access to rural 
students betters the whole community.

    The Chairman. Thank you very much, Ms. Sertich.
    Mr. Liang.

   STATEMENT OF WEIYA LIANG, DIRECTOR OF GEAR UP, WASHINGTON 
            STUDENT ACHIEVEMENT COUNCIL, OLYMPIA, WA

    Mr. Liang. Chairman Harkin, Ranking Member Alexander, 
distinguished members of the committee, thank you for this 
opportunity to participate in this roundtable to discuss the 
roles of Federal access programs, in particular, GEAR UP, in my 
case, in improving low-income student access to and success in 
post-secondary education. I want to express my gratitude 
especially to Senator Patty Murray, my home State Senator from 
Washington, for her role in improving the lives of 
Washingtonians and especially for low-income students in the 
State. It is no coincidence that she received the Champions for 
Student Success award this year from NCCEP.
    Federal access programs play a critical role in important 
student outcomes in higher education by providing academic, 
social, and financial support. GEAR UP, TRIO, and Federal 
student financial aid programs provide support in these areas 
through a variety of services. To provide effective and 
targeted services, we need innovation in research and 
evaluation to identify services and interventions that have the 
greatest impact for post-secondary education.
    Washington State's GEAR UP, together with 14 other States--
many of the States' senators are here--formed a College and 
Career Readiness Evaluation Consortium to study from a 
longitudinal perspective over 150,000 students in their 
progress. Research has shown that students, especially those 
from low-income families, face particular challenges at 
critical transition points, from middle school to high school 
and from high school to post-secondary.
    The Higher Education Opportunity Act of 2008 has given GEAR 
UP a unique perspective, because this is the only Federal 
access program that, across education sectors, break the silos 
from seventh grade to the first year of post-secondary 
education. No other Federal access programs that I know have 
crossed that span.
    So the flexibility provided by GEAR UP and HEOA allows us 
to create programs that are responsive to the culture and needs 
of the community of students. With a high degree of 
intentionality and engagement, programs solicit strong support 
from schools, from institutions of higher education, and from 
parents and States. All of these have proven to be effective in 
helping target populations, access, and success in post-
secondary education.
    A study by the Washington State University's Social and 
Economic Science Research Center concludes that:

          ``Contrasting GEAR UP participants with a comparison 
        group of other low-income students, GEAR UP students 
        had more positive outcomes on virtually all measures of 
        enrollment, persistence, and degree attainment.''

    I look forward to participating in the conversation.
    Thank you.
    [The prepared statement of Mr. Liang follows:]
                   Prepared Statement of Weiya Liang
    Chairman Harkin, Ranking Member Alexander and distinguished members 
of the committee, thank you for this opportunity to participate in the 
roundtable on ``Strengthening Federal Access Programs to Meet 21st 
Century Needs'', and to discuss the roles of Federal access programs, 
in particular, GEAR UP, in improving low-income students access to, and 
success in, higher education. I represent Washington State GEAR UP at 
the Washington Student Achievement Council. Washington State is home to 
one State GEAR UP program and nine partnership programs.
    Federal access programs play a critical role in improving student 
outcomes in higher education by providing academic, social, and 
financial support. Both the National College Access Network and the 
Lumina Education Foundation have identified the same three areas of 
support and services as being key to improving student outcomes. GEAR 
UP, TRIO and Federal student financial aid programs provide support in 
these areas through a variety of services that include tutoring, 
mentoring/advising, financial literacy, family engagement, financial 
aid and scholarships.
    To provide effective and targeted services, we need innovation in 
research and evaluation to identify services and interventions that 
have the greatest impact on post-secondary education. Washington State 
GEAR UP, and 14 State programs formed a College and Career Readiness 
Evaluation Consortium. This longitudinal, self-initiated project will 
study over 150,000 students, to identify which interventions have the 
greatest impact on college going aspirations, academic preparation, 
high school success and post-secondary enrollment, persistence and 
completion. The Consortium is working in partnership with ACT, the 
National Council for Community and Education Partnerships, the National 
Student Clearinghouse Research Center and the U.S. Department of 
Education.
    Research has shown that students, especially those from low-income 
families, face particular challenges at the critical transition points 
of middle to high school and high school to college. The Higher 
Education Opportunity Act of 2008 has positioned GEAR UP to address 
this issue because it is the only Federal access program to provide 
comprehensive services from the middle school to post-secondary 
education--starting in the seventh grade through the first year of 
post-secondary education.
    GEAR UP's success lies in the collaboration among program 
administrators, school districts, higher education partners, community-
based organizations, and the State. We find that coordinated 
intervention efforts, a healthy learning community, and regular 
information sharing among State and partnership programs has created 
more opportunities for GEAR UP students and their families. 
Complementary and supplemental services ensure students and families 
have access to comprehensive intervention services over a 6- to 7-year 
period.
    The flexibility provided for GEAR UP in the HEOA allows us to 
create programs that are responsive to the culture and needs of the 
community of students. With a high degree of intentionality and 
engagement, programs solicit strong support from school district 
leadership, educate and engage families as partners, and provide 
rigorous and relevant curriculum. All these have proven to be effective 
in helping the target population access and succeed in post-secondary 
education. A study by the Washington State University's Social and 
Economic Science Research Center concludes:

          ``Contrasting GEAR UP participants with a comparison group of 
        other low-income students, GEAR UP students had more positive 
        outcomes on virtually all measures of enrollment, persistence 
        and degree attainment.''--(Mann, 2012)

    Thank you.

    The Chairman. Thank you very much, Mr. Liang.
    Dr. Harris.

 STATEMENT OF DOUGLAS N. HARRIS, Ph.D., ASSOCIATE PROFESSOR OF 
  ECONOMICS AND UNIVERSITY ENDOWED CHAIR IN PUBLIC EDUCATION, 
               TULANE UNIVERSITY, NEW ORLEANS, LA

    Mr. Harris. Thank you, Chairman Harkin, Senator Alexander, 
and members of the committee. Thanks for including me in this 
conversation.
    I want to emphasize three points. The first is that the 
college access landscape has shifted dramatically since these 
programs were put in place. I was just in a high school 
yesterday in New Orleans where almost all the students were 
from low-income families. In the hallways were college banners 
from all over the country. The freshman class was gone because 
they were all visiting colleges around New Orleans.
    This is becoming increasingly common, not just in New 
Orleans, but around the country. There's much greater focus in 
the schools on college access than there was decades ago when 
these programs were put in place.
    Second, a Federal role in college access services is still 
needed. As a basic principle, the Federal Government should 
provide resources and services that are critical for the least 
advantaged among us, especially when those services won't be 
provided otherwise.
    Students need connections to adults who can encourage them 
and walk them through the social, academic, and financial 
demands for college and do so early in their lives. They need 
someone who can turn college from a vague notion into a 
concrete reality.
    Third, while a Federal role is needed, research suggests 
that the current role is outdated. So I want to focus 
especially on the Upward Bound experiment, because it's really 
the study that gets the most attention with regard to TRIO.
    There were problems with the national Upward Bound 
experiment that make it difficult to interpret the main 
findings from that study. But one thing is clear, that the 
students in the experiment who had significant behavioral and 
academic problems early in high school, students who would 
normally be disqualified from Upward Bound, benefited greatly 
from this. The benefits exceeded the cost by a ratio of 10 to 1 
for those students. This suggests that TRIO and GEAR UP need to 
be better targeted.
    The Federal role should also be changed to allow greater 
flexibility and individualization. The current law mandates 
that all TRIO programs provide a single set of mandatory 
services. But with the proliferation of nonFederal programs and 
the fact that students have different needs, it is increasingly 
difficult to justify a rigid approach like that.
    Finally, the various college access programs need to be 
better coordinated and more efficient. I know of many high 
schools that have students in four or five different Upward 
Bound programs in the same school, providing the same services, 
on top of the other college access programs that the schools 
are providing.
    The college access landscape has really shifted, and I 
think TRIO and GEAR UP need to change along with it. I think we 
need to target, individualize, and coordinate these programs in 
a way that make them a better investment in the future.
    Thank you.
    [The prepared statement of Mr. Harris follows:]
             Prepared Statement of Douglas N. Harris, Ph.D.
                the changing landscape in college access
    The landscape of college access has shifted dramatically since TRIO 
was first passed in the 1960s, and even since more recent developments 
such as GEAR UP. Students attend college at higher rates and 
schoolteachers and principals set college as the goal even for students 
who never would have attended a generation ago. ``College-for-all'' and 
``college- and career-ready'' standards are increasingly giving 
disadvantaged students an opportunity to prepare for the college track.
    With high average rates of college entry, it is tempting to think 
that the college access problem has been solved, but that is far from 
reality. Low-income students continue to enter college at much lower 
rates.\1\ Only 65 percent of minority students graduate from high 
school \2\ and, of those, only a little over half go right on to some 
type of college.\3\
---------------------------------------------------------------------------
    \1\ Kirst, M.W. (2004). The high school/college disconnect. 
Educational Leadership, 62(3). p.51-55. Bailey, M.J. & Dynarski, S.M. 
(2011). Gains and gaps: Changing inequality in U.S. college entry and 
completion (NBER Working Paper 17633). Cambridge, MA: National Bureau 
of Economic Research.)
    \2\ Heckman, J.J. & LaFontaine, P.A. (2007). The American high 
school graduation rate: Trends and levels (NBER Working Paper No. 
13670). Retrieved from National Bureau of Economic Research Web site: 
http://www.nber.org/papers/w13670.
    \3\ Aud, S., Hussar, W., Kena, G., Bianco, K., Frohlich, L., Kemp, 
J., & Tahan, K. (2011). The condition of education 2011 (NCES 2011-
033). U.S. Department of Education, National Center for Education 
Statistics. Washington, DC: U.S. Government Publishing Office.
---------------------------------------------------------------------------
    Nevertheless, the problems that TRIO and GEAR UP were designed for 
have evolved. Students want to attend college and most schools offer 
the required academic basics, but many students remain under-prepared 
for the academic, social, and financial demands of post-secondary 
education. Scholars have documented the issues--students who are 
motivated but directionless, enrolled in college track courses while 
studying only rarely, conducting consequential but ill-informed college 
searches, selecting colleges that are poor matches, and floundering 
through higher education propelled by a compelling but vague goal of 
getting a ``college degree.'' \4\ Given how easily we can predict who 
will not graduate from college, it is clear that something still has to 
be done before students finish high school if they are going to succeed 
in college. The landscape has shifted, but real college access remains 
a fundamental problem.
---------------------------------------------------------------------------
    \4\ Bowen, W.G., Chingos, M.M., & McPherson, M. (2009). Crossing 
the finish line: Completing college at America's public universities. 
Princeton, NJ: Princeton University Press. Roderick, M., Nagaoka, J. 
Coca, V., & Moeller, E. (2009). From high school to the future: Making 
hard work pay off: The road to college for students in CPS's 
academically advanced programs. Chicago, IL: Consortium for Chicago 
Schools Research. Rosenbaum, J. (2001). Beyond college for all: Career 
paths for the forgotten half. New York, NY: Russell Sage Foundation. 
Schneider, B., & Stevenson, D. (1999). The ambitious generation: 
America's teenagers, motivated but directionless. New Haven, CT: Yale 
University Press.
---------------------------------------------------------------------------
    My comments below are based on a re-analysis of the federally 
funded Upward Bound experiment I conducted with Dr. Alan Nathan, as 
well as two ongoing field experiments in Milwaukee and published 
research on cost-effectiveness of college access and success 
strategies.\5\ After discussing Upward Bound, I recommend some general 
guidelines for altering Federal access programs and a more aggressive 
Federal agenda for research to understand how these programs work.
---------------------------------------------------------------------------
    \5\ Harris, D.N. (2013). Applying cost-effectiveness analysis in 
higher education. In A. Kelly and K. Carey (eds.). Stretching the 
Higher Education Dollar. (pp. 45-66). Washington, DC: American 
Enterprise Institute.
---------------------------------------------------------------------------
                        upward bound: revisited
    Upward Bound (UB) is the only Federal access program for which we 
have anything approaching rigorous evidence, so naturally the results 
of this single, large experiment have received considerable attention. 
The federally sponsored experiment, first launched in the early 1990s 
and lasting almost two decades, was intended to estimate effects on a 
nationally representative sample of 67 UB sites. Students were offered 
UB at random so that the results estimates would reflect only the offer 
to participate in UB and not other differences in student 
characteristics.
    The original evaluator concluded that UB had ``no detectable 
effect'' on college entry or completion,\6\ a conclusion that has since 
been widely cited as an argument for defunding or revamping the 
program.\7\ An advocacy group, the Council on Opportunity in Education 
(COE) has been critical of the study,\8\ although there have been no 
prior attempts to objectively address their concerns. My analysis with 
Dr. Alan Nathan considers the COE and other critiques based on typical 
research standards.\9\
---------------------------------------------------------------------------
    \6\ Seftor, N.S., Mamun, A., and Schirm, A. (2009). The Impacts of 
Regular Upward Bound on Post-Secondary Outcomes Seven to Nine Years 
After Scheduled High School Graduation. Final report. U.S. Department 
of Education.
    \7\ Field, K. (2007). Are the Right Students ``Upward Bound?'' 
Chronicle of Higher Education 53(50), 16-16. Haskins, R. & Rouse, C. 
(2013). Time for Change: A New Federal Strategy to Prepare 
Disadvantaged Students for College. The Future of Children, 2, 1-6.
    \8\ Cahalan, M.W. (2009). Addressing Study Error in the Random 
Assignment National Evaluation of Upward Bound: Do the Conclusions 
Change? Council for Opportunity in Education: Washington, DC.
    \9\ Harris, D.N. & Nathan, A. (2013). The Effects, Benefits, and 
Costs of the Upward Bound College Access Program: Evidence from a 
National Randomized Trial. Presentation at the annual meeting of the 
Society for Research on Educational Effectiveness, Washington, DC.
---------------------------------------------------------------------------
    Our conclusions differ from both the original evaluator, as well as 
COE. Due partly to the design of the experiment, the conclusions are 
very sensitive to seemingly small changes in the way the estimates are 
made. In particular, in the sampling design, one of the 67 sites 
contributed only 3 percent of the student observations but was given 26 
percent of the weight when estimating impacts. Put differently, the 
students in this one site counted more than eight times as much as most 
of the others. Some individual students in some estimates were given 80 
times as much weight as others. This is highly unusual and opens the 
possibility that this one site could drive the results of the entire 
study. It also makes it less likely that any estimate will reach 
typical standards of statistical confidence.
    The site in question also appears to have been placed in the wrong 
category or ``stratum,'' so that it was given more weight than it 
should have been. This compounded the earlier problem, further calling 
into question whether the large weight attached to this one site could 
be justified. The contractor team recognized these problems and, at the 
request of the U.S. Department of Education, appropriately carried out 
additional analyses with alternative sampling weights. The results 
became noticeably more positive when the sampling weights were handled 
in different reasonable ways.
    While driven partly by the above issues with the design of the 
experiment, it is not unusual for results to be sensitive in this way. 
In such cases, it is generally considered good practice to be cautious 
in drawing conclusions. Yet, the contractor's final report concluded, 
in bold letters, that UB had ``no detectable effects'' on high school 
graduation, college enrollment, or college graduation.\10\ Given that 
the conclusion is nearly the opposite when other reasonable methods are 
used, I believe a more appropriate conclusion is that the results are 
indeterminate; that is, it is not possible to determine whether the 
program worked on average based on the usual standards of significance.
---------------------------------------------------------------------------
    \10\ Seftor et al. (2009), Ibid.
---------------------------------------------------------------------------
    But there is still much to learn from this experiment about 
targeting, costs, and benefits. Based on what UB site administrators 
say about the eligibility criteria, it appears that hundreds of 
students participated in the experiment who would typically have been 
screened out for having too many behavioral and academic challenges. 
For example, a national survey of UB site directors conducted in the 
1990s reported 62 percent of respondents disqualified applicants with a 
history of behavioral problems or a record of disciplinary actions, 
while 47 percent of responding administrators disqualified students who 
had no specific interest in college. Since students enter UB early in 
high school, when students know little about college, there is little 
reason to expect that these would be good indicators of whether 
students would benefit from UB.
    The fact that these additional students were included is useful 
because it presents an opportunity to learn which types of students 
benefit most from UB. While almost none of the students in UB would 
ever be considered ``advantaged,'' there is great variety in the needs 
of low-income and first-generation students and some of them are 
already doing relatively well by the time they get to high school. Our 
results suggest that students with more challenges in fact benefit much 
more than students typically allowed into UB (the precise amount 
depends on exactly how the students are placed in the typically 
eligible group). Unlike the earlier discussion of average effects and 
sampling weights, the larger effects for typically disqualified 
students are insensitive to methodological choices. This yields 
convincing evidence that UB, at least as it was designed at the time of 
the experiment, is poorly targeted.
    Finally, we conducted a series of cost-benefit analyses, 
quantifying the economic benefits of the various high school and 
college credentials and comparing these with the program costs. Such a 
comparison is important given that UB is widely considered an expensive 
program.\11\ Are these costs justifiable? The answer seems to be 
clearly ``yes.'' Unlike the estimates of the average program effects, 
the benefits easily exceed the costs of the program under almost any 
set of assumptions, including the most pessimistic estimates of program 
effects. Importantly, the only condition under which UB may not pass a 
cost-benefit test is when we limit estimates to students who are 
typically served. This reinforces the importance of better targeting to 
students most likely to benefit.
---------------------------------------------------------------------------
    \11\ Harris, D. (2013). Ibid.
---------------------------------------------------------------------------
                            recommendations
    My re-analysis of UB with Dr. Nathan leads to recommendations that 
are consistent with other trends in observations in my college access 
research.
    Targeting. Current college access programs should be targeted to 
students who are more disadvantaged. This is not only consistent with 
the effects of UB, but also with the logic that college access programs 
are more widely available today, especially in schools serving the 
socioeconomically disadvantaged students. (We see this especially in 
Milwaukee Public Schools where most college access programs are not 
federally funded.) Targeting these programs to first-generation and 
low-income college students is a good start, but, as our UB analysis 
shows, many of these students are apparently on track for college 
without additional Federal access programs.
    Individualization. In addition to better targeting, services might 
be more effective if they were more flexible and individualized. 
Different students have different needs, yet Federal college access 
programs provide a fixed set of services, many of which are mandated by 
Federal rules. If program administrators could diagnose the needs of 
each student and individualize service delivery, the programs would 
likely be more effective. The fact that many services are federally 
required compounds the problem because site administrators are forced 
to provide specific services, giving administrators little reason to 
diagnose individual student needs.
    Efficiency. A better return on investment might be achieved by 
simply finding cheaper ways to address students' needs. UB costs more 
than $5,000 per participant per year, while other recent research 
suggests that similar gains can be had at a fraction of the cost.\12\ 
The traditional services being provided by Federal programs may still 
be warranted for some students, especially those who face the greatest 
barriers, but if there are more cost-effective ways to help these 
students, we should pursue them.
---------------------------------------------------------------------------
    \12\ Castleman, B.L., & Page, L.C. (2013). Summer Nudging: Can Text 
Messages and Peer Mentor Outreach Increase College Going Among Low-
Income High School Graduates? Paper presented at the Society for 
Research on Educational Effectiveness Spring Conference. Washington, 
DC. Bettinger, E. & Baker, R. (2011). The Effects of Student Coaching: 
An Evaluation of a Randomized Experiment in Student Advising. 
Unpublished manuscript. Stanford University School of Education, Palo, 
Alto, CA. Hoxby, C. & Turner, S. (2013). Expanding College 
Opportunities for High-Achieving, Low Income Students. Stanford 
Institute for Economic Policy Research. Palo Alto, CA.
---------------------------------------------------------------------------
    Avoiding the Unintended Consequences with Performance Standards. 
Given the desire for targeting, individualization, and efficiency, it 
seems reasonable to set goals for programs, provide funding based on 
results, and let program operators use resources to reach those goals 
as they see fit. As recent efforts in school and college accountability 
have shown, however, performance requirements are fraught with 
challenges and the potentially perverse incentives. For example, one 
reason UB sites might be screening out the most disadvantaged students 
is that Federal funding is partly contingent on their getting a high 
percentage of students to succeed in college. Paradoxically, these 
Federal incentives may induce program operators to select the students 
who do not need their services--students who will likely make it to 
college regardless of whether they are in college access programs. One 
way to avoid the unintended consequences of performance standards is to 
send a clearer message to program administrators that they should be 
targeting not just low-income and first-generation students, but also 
those with more severe academic and behavioral challenges.
    The Need for More Research. I make these recommendations with some 
caution because the research basis for decisions on Federal college 
access programs is wholly inadequate. Upward Bound is the only Federal 
access program for which we have rigorous evidence and even that, as I 
have shown, is misunderstood. Perhaps the most important step is to 
fund additional studies so that these decisions can be better informed.
                              conclusions
    Given the changing landscape, and recent research on Upward Bound, 
there can be little doubt that TRIO and GEAR UP are ready for redesign. 
While the current research base is far from adequate, it appears that 
targeting existing programs to students with greater disadvantages, 
diagnosing and individualizing services, looking to more efficient 
service options, and avoiding the unintended consequences of 
performance incentives would all help to maintain these programs as 
core components of the Nation's efforts to increase college access and 
success.

    The Chairman. Thank you very much, Dr. Harris.
    Dr. Haskins.

STATEMENT OF RON HASKINS, Ph.D., SENIOR FELLOW AND CO-DIRECTOR 
   OF THE CENTER ON CHILDREN AND FAMILIES AND BUDGETING FOR 
NATIONAL PRIORITIES PROJECT, BROOKINGS INSTITUTION, WASHINGTON, 
                               DC

    Mr. Haskins. Thank you, Mr. Chairman. It's a privilege to 
be able to testify before the committee today and to discuss 
these issues with you. I want to make five points that will 
average 24 seconds apiece.
    The first thing is we're all aware that a 4-year degree has 
great value for a low-income child. But I want to give you one 
figure that I think will be helpful in realizing how important 
it is. Among all the kids from the bottom 20 percent of 
parental income, the probability, if they don't get a 4-year 
degree, that they will wind up in the bottom themselves is 45 
percent, twice as great as other children.
    If they get a 4-year degree, the probability that they'll 
wind up in the bottom is 16 percent. Similarly, to get all the 
way to the top, the probability is 5 percent if they don't get 
a degree and almost 20 percent if they do. There is no other 
intervention that I'm aware of that produces this kind of 
impact. So this is a crucial issue.
    The second point is, nonetheless, despite that advantage of 
getting a 4-year degree, 53 percent of the kids from the top 20 
percent of income get a 4-year degree, 11 percent of the kids 
from the bottom, and the dropout rate is enormous, both at 4-
year schools and at community colleges.
    The third point is, obviously, it makes sense, given these 
numbers, to have better college preparation programs, and 
Congress realized that in the 1960s. From the beginning of the 
War on Poverty issue that was pointed out, and as Congress so 
often does, they created a lot of programs. So we now have a 
bunch of programs. I completely agree with the comment about 
coordination. And we spend maybe $1.2 billion or so on these 
programs.
    The fourth point is--and there's a lot of room for 
controversy here--the evaluations of these programs--I would 
call them discouraging. I don't think these programs are 
producing major impacts--some perhaps more than others. I'm 
sure there are fabulous individual programs. There's the exact 
same situation with Head Start, which I'm sure members of the 
committee know.
    There are lots of crummy programs out there, and even 
though there are some good ones, on average, the results are 
not too impressive. So we need to do something. I have several 
recommendations that I mention in my testimony. I subscribe to 
all the things that Dr. Harris said.
    But I think the most important thing is that we do not 
evaluate individual programs very well. This administration has 
done a better job of evaluating programs at the local level 
than any administration before. They have great skill in doing 
this.
    If you look at i3, you will see a huge increase in 
evaluations, including rigorous, high-quality evaluations. That 
is the key to improve these programs. If the individual 
programs do not do well, then they should lose their money.
    Thank you.
    [The prepared statement of Mr. Haskins follows:]
                Prepared Statement of Ron Haskins, Ph.D.
    A college education offers substantial benefits, especially for 
children from poor and low-income families. Since the 1980s, the median 
family income of adults in their prime earning years has increased only 
for those with a 4-year college or advanced degree. Equally important, 
young adults from families in the bottom fifth of the income 
distribution who achieve a 4-year college degree are nearly 80 percent 
less likely to wind up in the bottom fifth themselves than are their 
peers who do not achieve a 4-year degree.
    A primary reason that disadvantaged students have trouble both 
getting into college and completing a degree is that they are not 
academically prepared to do college work. One scholar's careful 
analysis of data from 19 nationally representative studies shows that 
the achievement gap between students from high-income and low-income 
families has grown in recent years and is now much larger than the gap 
between white and black students. This rising inequality in K-12 
achievement based on family-income parallels growing disparities in 
college enrollment and completion between students from high-income and 
low-income families. The Panel Study of Income Dynamics shows that only 
11 percent of students from the bottom fifth graduate from college, 
compared with 53 percent and 38 percent of students from the top two 
fifths.
    There are four major Federal programs that attempt to better 
prepare disadvantaged students for success in college. These include 
Upward Bound, Upward Bound Math-Science, Talent Search, and Gear Up. 
All of these programs have been evaluated, although the quality of the 
evaluations varies. The best evaluation is that of the oldest program, 
Upward Bound. Most of these evaluations have shown that the program has 
modest or no impact on college enrollment or college graduation. The 
best evaluation which meets the Institute of Education Sciences 
standards for top-tier evidence shows no major effects on college 
enrollment or completion.
    Half a century and billions of dollars after these Federal college-
preparation programs were initiated, we are left with mostly 
unsuccessful programs interspersed with modest successes. Preparing 
disadvantaged students for college is a major challenge, with no well-
tested solutions in sight. That said, there are hints in some of the 
programs about what could make a difference: summer programs, 
mentoring, tutoring, parent involvement, and similar activities have 
sometimes been associated with higher college enrollment. These may be 
the threads from which we can begin to weave together a new kind of 
intervention program.
    The Obama administration has been funding and expanding social 
programs that have good evidence of success and reforming or 
terminating programs that have proven unsuccessful--a major strand of 
innovative social policy. The administration has formulated evidence-
based social initiatives to prevent teen pregnancy, boost parenting 
skills, enhance employment and training, encourage community-based 
social innovation, and reform education. We need intense evidence-based 
solutions to the problem of preparing disadvantaged students for 
college as well. Thus we recommend a dramatic change in the way Federal 
college preparation programs are funded, using an approach similar to 
that of the Obama administration's other evidence-based initiatives.
    We propose a five-step reform. First, we propose that the $1 
billion the Federal Government spends annually on college preparation 
programs be consolidated into a single grant program. In this sense, 
the change we propose is similar to the Obama administration's reform 
of Head Start, in which every Head Start grantee in the country risks 
losing its money if it does not perform at a high level. Similarly, in 
order to keep their Federal funding, current grantees would need to 
show, based on rigorous analysis of their performance, that they are 
helping disadvantaged students enroll in and graduate from college.
    Second, the U.S. Department of Education should publish a funding 
announcement which states that any 2-year or 4-year college, any local 
education authority, or any nonprofit or for-profit agency with a 
record of conducting education interventions is qualified to compete 
for grants from the college preparation funds. Sites with existing 
programs could apply for funds, but their applications would be 
considered on a competitive basis like everyone else's.
    Third, the Department would make clear that evidence supporting the 
proposed intervention would be a crucial factor in determining the 
awards. Applicants would have to: demonstrate that they were using 
evidence-based interventions; demonstrate that their organization has a 
history of conducting programs that improve some measure or measures of 
college preparation, for example, by raising high school achievement 
scores or boosting performance on college readiness tests; present a 
detailed plan for evaluating their program, including how they would 
use data as feedback to improve it.
    Fourth, the Department would be able to decide how to distribute 
the money among various approaches to helping disadvantaged students 
prepare for college. It would have the flexibility to use up to some 
maximum percentage of the funds (perhaps 20 percent) to support 
approaches, such as the current Student Support Services program, that 
help disadvantaged students once they arrive at college.
    Fifth, the Department would use up to 2 percent of its annual funds 
($20 million) to plan a coordinated program of research and 
demonstration, featuring large-scale random-assignment studies, that 
would determine whether well-defined interventions or specific 
activities (such as mentoring, tutoring, etc.) actually increase 
college enrollment and completion. All entities that received funds 
under the grant program would have to agree to participate in the 
Department's demonstration and research programs.
    Social policy should be based, at least in part, on evidence, and 
everything we know leads to the view that many, if not most, social 
programs produce modest or no effects. The Obama administration's 
reform of Head Start shows that a major ingredient of evidence-based 
policy is to reform or terminate ineffective programs. We should apply 
the same tough-minded approach to college preparation programs.

    The Chairman. Well, that was a good way to sum up. We're 
trying to look at this, and all of you have said in one way or 
another that the landscape has changed since the 1960s, even 
since GEAR UP came up in the 1990s. Again, I think Senator 
Alexander posed the question: Is this the most effective means 
of using--what is it--$1.1 billion, something like that, every 
year?
    Senator Alexander. Yes, for the six programs.
    The Chairman. I first became acquainted with the TRIO 
program when I first came to Congress as a House member. I had 
never heard of it before. And I've sort of followed it in a 
couple of schools in my State since that time.
    You know, we always tend to look at the great success 
stories, Mr. Griggs' being one, and I know a lot of others who 
have been through the TRIO program and were very successful. 
But I don't know about what happened to the others that didn't 
make it, that dropped out. We know that in the past, I think 
the figure was about 50 percent of low-income students who drop 
out their first year of college, something like that, somewhere 
near that, I think. We wonder about the support services.
    But here's what I'm getting at. I've become aware that the 
college campus today is not like it was when I went to college. 
Today, over half of the college students are not campus-based, 
and they're over age 25. So what's happening with these low-
income students who--their parents never went to college, and 
they live in maybe bad areas, like Mr. Griggs mentioned, where 
he was raised.
    And yet they're presented with this idea that college is 
someplace you go, and you live on a campus, and you're there. 
But that's not what's happening today. More and more students 
are opting for a different way of getting their higher 
education.
    So should we look upon the TRIO program and GEAR UP as 
somehow providing the kind of support services and mentoring to 
a student that maybe doesn't go to a traditional college? He 
goes to a community college, maybe, or does a lot of online 
work. Low-income kids know how to use those computers.
    But I don't see that TRIO and GEAR UP is focusing on that 
student. It seems to me--and maybe I'm wrong--that they're 
still focused on that student going to some campus somewhere, 
and that's different.
    Ms. Hoyler, you put yours up first.
    Ms. Hoyler. I think that, oftentimes, when people think 
about TRIO, they focus on the college access component. But 
about half of our programs are retention programs. They are 
focused on keeping the students who start college, the low-
income, first-generation students who start college, in college 
and helping them graduate.
    They're particularly focused on persistence and graduation. 
That's what they're measured on, whether they graduate 
students. And about half of those programs are in community 
colleges. So while the image may be of programs focused on the 
baccalaureate--and our organization, particularly, is committed 
to assuring that all students, low-income and first-generation 
students, have access to all categories of institutions. We 
don't have a dual system where poorest students go to one set 
of campuses and my children go to another set of campuses.
    TRIO programs and GEAR UP programs focus on all categories 
and institutions. So I think that's really important to 
understand. And it is those retention services that are equally 
key to the access services.
    As we were coming over today, Mr. Griggs was mentioning 
that because of the counseling he received, he didn't work in 
his first year of college. He decided that he really had to 
focus on succeeding in college. And even though he didn't have 
the strongest academic record in high school, he blew it out of 
the water when he got to college. He did it because he didn't 
work 35 hours a week.
    Many of our lowest-income students are trying to work too 
many hours to avoid high loan burden. They're not getting good 
counseling. So they're not only not staying in school, but 
they're not making the best use of Pell, they're not making the 
best use of financial aid, and so these services are necessary, 
not just at the pre-college level, but at the retention and 
access level or success level as well.
    The Chairman. Mr. Giles.
    Mr. Giles. I think you raise a wonderful point, and I think 
it's important for us to remember, at least with the GEAR UP 
programs, that we are focused on education and training for 
these students after high school. So for some students, it's 
appropriate to pursue a degree, a 4-year degree. It could be a 
2-year degree. It could be a certificate or an apprenticeship.
    But the changes that have taken place in higher education--
I think we all recognize that not every online program is of 
equal quality, and not every proprietary school is of equal 
quality. Not every traditional institution is of equal quality. 
And this is an area that these students really struggle with, 
and it's a critical role that our programs need to play in 
helping them make good choices that will really allow them to 
achieve their goals.
    The second really brief point that I wanted to make touches 
on what you said about how they perform once they're in school, 
whatever that institution is. GEAR UP now has a seventh-year 
program, which is allowing several of the programs across the 
country to really serve as that bridge from their high school 
experience to whatever post-secondary education choice they've 
made, where we can work with a cohort of students, almost like 
a posse system, during that first year to try and change those 
continuation rates. And I think that that's really one of the 
areas that holds particular promise.
    The Chairman. Thank you.
    Now, Ms. Sertich. We'll do that, and I'm inviting Senators 
now to just weigh in and start asking questions.
    Ms. Sertich. Yes. Thank you.
    The Chairman. Go ahead and respond to that, and then I'll 
go to Senator Alexander.
    Ms. Sertich. I'd certainly like to echo what Ms. Hoyler 
said. Coming from a community college level, we certainly have 
students that are traditional students going to 4-year 
institutions. But we have many students who do online and who 
do community colleges first and then transfer.
    But I wanted to speak about the online piece. Students are 
doing more online now. And it's not a given that they know how 
to use the technology. The students I work with--we actually 
build the online format that our college uses into our Upward 
Bound program so that students are familiar with it by the time 
they get to college, because we know they will take online 
classes.
    In our Summer Bridge program, which is right after high 
school graduation, our Upward Bound students can take a class, 
that Upward Bound piece or at the institution. And it really 
helps bridge and have them learn the expectations that the 
college professors and instructors are going to have of them as 
a student.
    But in our small community college, we have few classes, 
actual in-person classes, face to face, during the summertime. 
So when we do those bridge classes, it's typically online. We 
really have to be there with our students and have daily 
contact with them and support through that online class to 
really teach them how to successfully be an online student, 
which has many different challenges and things to learn than 
being a college student in the classroom.
    The Chairman. Is what Ms. Sertich said true? I mean, do you 
all do that in your States, in Vermont and--this is kind of 
news to me.
    Mr. Liang. Yes, we do.
    The Chairman. Dr. Harris, do you want to weigh in on that?
    Mr. Harris. I have a different point.
    Mr. Liang. Yes, we do. Actually, we provide services, and 
Washington has a very strong community college system. It has 
been leading the country in getting students in and graduating 
them. One of the things we do is we work with community 
colleges to provide services, support services, through 
financial aid, through other access programs, through wrap-
around services with the institutions. So we do see that 
students do get individualized services and help them at least 
get through the first year of college experience.
    Mr. Harris. I was just going to add that I think--and your 
question and your sentiment about how things have changed and 
that students aren't on campuses anymore and more often at 2-
year colleges and so on. I think part of what that suggests is 
this coordination issue, that having these bridges between the 
high school and colleges years is important.
    But I also want to emphasize that part of what these access 
programs are doing is getting students on the right path to 
start with, getting them into the right colleges and the right 
place, because the students all have very different needs, 
different goals, and if you don't get them on the right path at 
the beginning, it's hard to get them back on that path later. 
So I think that's why targeting these services earlier is 
important.
    The Chairman. Dr. Haskins.
    Mr. Haskins. I just want to add a quick point. The most 
fundamental purpose of these programs, at least in my view, is 
to prepare the kids academically for college. That is the 
reason the dropout rates are so enormous. These kids are not 
ready for college. Most 4-year and 2-year colleges in the 
country have remedial programs. They fail utterly. So without 
good preparation in high school, in the K through 12 system, 
we'll continue to have high dropout rates, and these kids will 
not graduate, and they won't get the benefits that I referred 
to in my opening comments.
    The Chairman. Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    All of you are experts on college access. So let me ask you 
about testimony we heard at another hearing. We had a group of 
witnesses who came from different directions and all said the 
same thing. This is fundamentally what they said. They said, 
first, that the Pell grant, which is most of our Federal grant 
scholarships--if we only ask questions about the size of the 
family and what income was 2 years before, that we could put 
the application on a post card and simplify it.
    Second, that we could tell students in their junior year 
how much money they were eligible to get rather than have them 
pick a college, go to the college, and go through a very 
confusing process of finding out how much money they were 
eligible to have. And, third, because of social media, that, 
unlike 1965 or even 1973 or other years, we can let students 
know a lot in their seventh and eighth grade years.
    The fourth thing was that we should have a single grant, a 
single loan, and maybe a single tax credit. The testimony was 
that if we simplified Federal aid in that way, that there would 
be a large number of low-income students who would go to 
college who now don't. And, second, that we'd save a lot of 
money, which would permit us to provide scholarships to those 
students.
    So my question is do you agree with that? Do you think that 
if we simplified the Federal grant and aid system and made it 
possible for an application to be on a post card, answering two 
questions, and then told students in their junior year how much 
money would be available to them at any of the 6,000 
institutions we have and used social media aggressively in the 
middle school years and simplified the programs we have to one 
grant, one loan, and one tax credit, do you agree that would 
save a lot of money and encourage a lot more low-income 
students to go to college?
    Mr. Harris. I'll jump in. This relates actually to what 
we're doing in Milwaukee, where we're looking at the Promise 
scholarship. The idea of the Promise scholarship is to make a 
commitment to students much earlier, in this case, the ninth 
grade. I think the logic is kind of what you were suggesting 
and probably what the testimony focused on, which is that 
students get somewhat discouraged early on because they have 
misperceptions about cost. They worry about cost, and then that 
leads them to disengage from high school and get off on the 
wrong track at a pretty early stage.
    So the logic is if we can tell them they're going to have a 
certain amount of money well in advance, they might be on not 
just a better financial track, but a better academic one as 
well. I think it's a good idea. I think it's a great idea. And 
I think if you simplified the financial aid system, that would 
help facilitate that, because then it would be a lot easier.
    These forms are complicated enough. Trying to get people to 
fill out complicated forms in ninth grade for college is going 
to be difficult. So it would have to be a much simpler process. 
I don't think it's going to change the world. I think, really, 
the way to think about college access programs is that we need 
a bunch of different strategies to make a big dent.
    Every one of those things by itself will matter a little 
bit. The results we're seeing so far suggest it could matter a 
little bit. But none of these things individually is going to 
change--I think that they're good investments. I mean, they get 
a good return----
    Senator Alexander. Well, the testimony was that it would 
save up to $100 billion.
    Mr. Harris. I'm not sure I agree with that. I mean, you're 
still giving the money to the students. So for a given amount 
of money that you decide to give to the students, giving it to 
them earlier doesn't save money, necessarily.
    Senator Alexander. Well, the argument was that now, you go 
to college, and then you find out what your financial aid will 
be. This way, you'd be told in your junior year.
    Dr. Haskins.
    Mr. Haskins. I completely agree. I think it's a great idea. 
It's been a great idea for years, and every administration says 
they're going to do it, and they don't. So there must be some 
reason. If I was a member of the committee, I would say,

          ``I want to do this, but let's get the folks from the 
        Department of Education and other people here and ask 
        them, `Why haven't you done this, and what are the 
        disadvantages?' ''

    There must be some disadvantages, or we would have done 
this, because it makes such great sense.
    I can tell you--I hang out with economists at Brookings 
Institution, and there's a new part of economics called 
behavioral economics, and it's a simple principle that has an 
enormous application in government. If you want people to do 
something, make it as simple as possible. We would have more 
students applying to college earlier, arranging their 
financing, all the things you just said, if we made the process 
simpler. So we certainly can make it simpler than the FAFSA 
that we have now.
    Ms. Sertich. I also think early notification and 
simplification of the financial aid process is an important 
tool. It would be wonderfully helpful. But my students that I 
work with still need that one-on-one help on how to get through 
that financial aid process.
    Just knowing the amount of money they would get for a Pell 
grant early on wouldn't do everything. They don't understand 
what the Pell grant is or merit scholarships or things like 
that. So they still need that. And, in addition, even if they 
got the Pell grant and went to college, they still need the 
academic prep that the TRIO programs provide on the front end. 
Otherwise, they're not going to be successful college students.
    The Chairman. Ms. Hoyler.
    Ms. Hoyler. I'd like to pick up on that. You only save the 
money if they graduate from college. So we have to focus not 
just on getting them into college, but making sure that the 
colleges have the capacity to serve them and to educate these 
low-income, first-generation students. It's a good idea, but we 
have to focus on keeping the focus on graduation.
    We also have to understand that many of these students get 
constant messages that they're not college material, that they 
are not welcome at these institutions, that it is for somebody 
else. And just making it easier to get something that they 
don't really understand is not--as one of the other panelists 
said, it is a good idea, but it is a multifaceted problem, and 
we have to approach it from many different directions.
    The Chairman. Mr. Liang.
    Mr. Liang. Two points. One is, Senator Alexander, early 
commitment to financial aid is definitely a tool to help 
students recognize that they have a chance, they have financial 
aid there, so--and not only just the junior year. I know there 
are three or four States that have early commitment scholarship 
programs from 21st Century, Scholars from Indiana, College 
Bound Scholarship from Washington, Oklahoma Promise from 
Oklahoma, and Wisconsin has a similar program.
    These programs offer financial aid information earlier, 
when students are in the seventh and eighth grade. So they get 
that package. They get the promise from the States, in 
conjunction with the Pell grant and low-income. So that's one 
piece.
    The second piece is to simplify not just the financial aid, 
but simplifying messaging is more important to me, from my 
perspective, because there is some reason behind the complexity 
of the FAFSA form, if you ask the financial aid officers at 
institutions. But simplifying messaging is more important, 
especially to our low-income students. And we know through 
social media--and low-income families actually have cell phones 
more than having computers at home. So using social media 
definitely would be a wonderful tool to help them.
    The Chairman. Mr. Giles.
    Mr. Giles. Just two quick points. I think complexity right 
now is a barrier. So if we can eliminate a barrier to access, 
that's a positive thing. I think the second thing on early 
promise is that within the GEAR UP program, there is a 
scholarship component to it, and many of the GEAR UP programs 
across the State are now in the process of experimenting with 
early notification.
    We have schools where we're serving the whole school, and 
we can tell every student in that school that they're eligible 
for a $1,000 scholarship when they graduate if they go on to 
college. The data is not in for our program yet, but I think 
it's something that we're all hoping will have a positive 
impact on the college-going culture in the schools.
    The Chairman. Thank you, Mr. Giles.
    I have listed in order of appearance Senator Franken, 
Senator Burr, Senator Baldwin, Senator Murphy, Senator Murray.
    Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman.
    Ms. Sertich, thank you for being here from the Range. 
During this last recess, I re-read Paul Tough's book, How 
Children Succeed, Grit, Curiosity, and the Hidden Power of 
Character. Dr. Haskins just said that the reason that kids 
don't succeed in college is they're not academically prepared. 
And I think there's no question about that.
    But Tough says in his book--and he relies on a tremendous 
amount of research--that character--and character can be a 
loaded term. To liberals, it can mean indoctrination, religious 
indoctrination, or something like that, and to conservatives, 
it can mean a political correctness or something. But non-
cognitive traits like resilience and perseverance and curiosity 
and conscientiousness and optimism and self-control are more 
determinative of a child's ability to succeed.
    I'm wondering to what extent you provide program support 
services that can help students develop these types of skills, 
in addition to academic skills. And to what extent do we think 
that these non-cognitive skills can be developed, and where in 
a kid's development are we able to do that?
    He goes into adverse childhood experiences the kids have, 
which can include extreme poverty, not enough to eat, parents 
that are divorced, or domestic violence, drug addiction, all of 
these different adverse things that can happen that can affect 
a child's--literally their brain chemistry. I was wondering if 
you provide support services--and this is open to everybody. To 
what extent are you focused on that, and does that reflect the 
ability of these kids to succeed in college?
    Ms. Sertich. Yes. Thank you, Senator Franken. Thanks for 
having me here. Absolutely, it affects their ability to be 
successful after high school and college and in their lives. I 
recently did a webinar about a month ago about an organization 
who did research on resiliency and the effect of resiliency on 
students in their education.
    One thing that I found that was wonderful news was that the 
research showed that we can effect change with students. Even 
at the high school level, even if things have been difficult up 
until high school, and they haven't had some of those skills 
and qualities, we can make changes with that student.
    So a few examples of what my program does--we absolutely 
work in this realm. We set up professional mentorships so our 
students can work with professionals in the community in 
careers that they're interested in. These mentorships also, 
obviously, can have a huge impact on those students' lives, 
both in long-term networking and in just learning what it is to 
be in a professional field.
    Also, we work with long and short-term goal setting and how 
students reach goals. That's something we work with students on 
literally on a weekly basis. So that's certainly within that 
resiliency piece. And we do assertiveness training for our 
students so they learn how to advocate for themselves. Those 
are just a few examples of some of the services we provide 
within our TRIO program.
    Senator Franken. Mr. Griggs.
    Mr. Griggs. Thank you, Senator. To speak to Ms. Sertich's 
point, I can't speak from the research-based perspective, but I 
can speak from a personal perspective.
    I do remember distinctly as a 14-year-old when I was in 
high school the first time, I encountered my TRIO professional 
at that particular point in time. And Mr. Clay told me--he 
said, ``Listen, I would rather have someone with AQ over IQ.'' 
That was that ambition quota that he spoke to. I wasn't always 
the brightest kid in the classroom. I was surely smart, but I 
definitely wasn't the brightest. But I had a lot of ambition.
    He told me that ambition would take you further in your 
career in a lot of occasions than the intelligence piece 
because you can learn as you go. But you have to be willing to 
learn. So I think that the ambition portion of that is very 
important, and the TRIO programs have done a magnificent job in 
ensuring that they motivate their students and motivate the 
individuals that are in that program to go on and do bigger and 
better things.
    Senator Franken. I wasn't here for your testimony, but I 
read it last night. You have demonstrated incredible grit and 
determination and resilience, and that seems to be your story. 
I just was very moved by what you have done.
    Mr. Griggs. Thank you. I appreciate it.
    The Chairman. Ms. Hoyler.
    Ms. Hoyler. Senator Franken, I think one of the things that 
TRIO programs and GEAR UP programs do is they create peer 
groups where students who are all facing huge obstacles to 
their success can support one another. It is often peers that 
have more influence on each other than adults do. Or we can 
talk about adults who are striving to get out of a situation 
and achieve mobility.
    So often in the situations that our students face, most of 
their peers are trying to pull them down. So creating 
supportive peer situations is one of those things that gives 
them resilience and is an element of almost every TRIO and GEAR 
UP program.
    The Chairman. Thank you very much.
    Senator Burr.

                       Statement of Senator Burr

    Senator Burr. Thank you, Mr. Chairman.
    I welcome all of you and thank you for what you do. I am a 
fan of TRIO and GEAR UP. I'm a member somewhat confused right 
now because I heard the Chair and the Ranking Member attempt to 
try to suggest things that we've been told that make the 
problem better, or at least sort it out in a way that you're 
able to handle it on your end, the challenges that are out 
there, in a simpler way.
    When Senator Alexander talked about notification to a 
student, that they've got the resources, the resources are 
available, and that at an earlier age, students incorporate in 
their mind, ``I can go to college'' versus ``I've been told I 
can't,'' that sort of makes sense, that you'd have a student 
that engaged longer, that was probably a little more 
academically skilled wouldn't need remediation.
    But then I've heard selectively as we've gone around that 
remediation--Dr. Haskins, you hit on it. We've heard it in 
other hearings that we've had, the retention problems that 
exist--Ms. Sertich, the continued need for counseling and 
mentoring. It maybe sounds like everything that's sort of been 
thrown out doesn't change the landscape at all.
    So let me try to ask a simple question from a group not 
directly involved, but you're the recipients of it--K through 
12. What do we need to fix in K through 12 that might change 
what you receive in your program, and that's the students?
    Mr. Liang.
    Mr. Liang. Thank you for that question, Senator Burr. K-12 
is an environment where, I think, people are caged, if you 
will, to the K-12. So what it means is because of our political 
system, because of the decisionmaking process, the 
accountability is for graduation in most K-12 systems. It's not 
beyond the graduation numbers.
    When we look at that--and post-secondary education is not 
overtly stated in many of the missions of schools and 
districts. And we have noticed some schools, for instance, in 
eastern Washington--when they change that dynamic, when they 
change that mission statement, they actually see a jump in 
students' performance and students getting into post-secondary 
education. So I think that's a mindset that needs to be dealt 
with.
    Senator Burr. Let me say that I think Senator Harkin has 
been one of the most outspoken individuals about the counseling 
services that we need to provide in the high schools to guide 
students. I heard almost across the board that there's a 
failure there, I think, with one exception, and I couldn't 
distinguish whether that was the college recruitment of the 
students or whether that was actually implemented within the 
high school to bring colleges in.
    So help me as you go through this. If you can share with 
me--do we do a successful job in the school system at directing 
these students to higher education and what the requirements 
are?
    Mr. Griggs, it really troubles me that there could be a 
school that didn't share with a high school student that you 
needed an SAT or ACT to actually apply and to be considered. 
But I do know that's the reality. Hopefully, that's a failure 
of one school.
    Dr. Harris.
    Mr. Harris. I think there's a lot changing in what I see in 
the schools right now in that regard. Schools are very much 
focusing on college-going much more than they ever were before. 
Again, I'll take the Milwaukee example because that's one I 
know really well. Just in the last 5 or 6 years, partly as a 
result of some of the other Federal push--President Obama's 
push--they're really taking college-going as a goal and then 
trailing back to other things they need to get students ready 
for that.
    They increased the standards in Milwaukee recently to make 
them more in line with college-going standards. And some of the 
other examples I gave about having these other college access 
programs--they're inviting us in to do this work on the Promise 
scholarship. So I see big changes. In New Orleans, I see the 
same thing. I think in the past it's absolutely right that 
there has been a failure there. But I do see important 
improvements going on.
    Senator Burr. Dr. Haskins.
    Mr. Haskins. Based on the research, here's what I think the 
situation is. Kids from low-income families come to the K-12 
system already seriously behind. The K-12 system makes them 
further behind. They don't fix the problem. So this is very 
discouraging, but I think that's roughly the situation we have 
now.
    We've had a lot of recent research, especially from Sean 
Reardon at Stanford, showing that even though we have closed 
the black-white achievement gap, the achievement gap between 
kids from low-income families and upper-income families has 
increased at exactly the time when education is really the 
answer to how you earn more money, and it's the answer to the 
so-called disappearing middle class and more opportunity in 
America and so forth.
    So we have a big problem. The direct answer to the question 
is we need to increase literacy as well as the non-cognitive 
skills that Senator Franken mentioned in order to prepare these 
kids for college. If we can't do that, we will not be as 
successful as we could be and we'll continue to have the 
problems we're having now with increased inequality and a lack 
of opportunity.
    Senator Burr. Ms. Hoyler.
    Ms. Hoyler. I just want to point out that so much of 
college preparation for middle-income families is not provided 
by the school but is provided by out-of-school experiences, 
provided by the family. And I think our business community 
really recognizes that for low-income students--for example, 
General Electric, has been very supportive of our efforts to 
have communities and the business community very much involved 
in this, because the out-of-school time, the summers, the work 
experiences these students have, are very critical to their 
preparation for college and their understanding of college.
    So it's not just the K-12 system. I'm not saying the K-12 
system isn't a huge partner in this and isn't hugely 
responsible. But we can't make it the sole responsibility of 
the K-12 system.
    Senator Burr. Mr. Giles.
    Mr. Giles. This may be a little controversial, but I think 
that at some point we need to stop thinking about a K through 
12 system and start thinking of a K through 16 system, or some 
version of that, because a high school diploma is no longer 
sufficient to support a family. There are States that are 
experimenting with that.
    Vermont is one right now. We just passed a law that 
requires individualized learning plans for every student, 
starting in middle school, that includes career and education 
planning and guarantees every student access to dual enrollment 
with a post-secondary institution starting their junior and 
senior year. That's going to be our big experiment.
    Part of the value is that we will try and provide feedback 
to the schools regarding how their students are performing when 
they're in post-secondary environments so that we can have kind 
of a self-correcting model, where if students are inadequately 
prepared to succeed at the community college or the 4-year 
program, we can take a look at what's happening in the middle 
school and high school.
    The Chairman. Ms. Sertich.
    Ms. Sertich. In our rural area, one of the major challenges 
in our K-12 system that our students experience on a regular 
basis is lack of rigorous course options. We don't have AP 
courses. We don't have international baccalaureate courses. 
Only one of the four high schools I serve has honors courses. 
And beyond that, sometimes these schools can't even offer 
physics every year. They don't have pre-calculus classes.
    There is an initiative happening in my area, a partnership 
between the colleges--and TRIO programs have been a part of 
this process--and the schools districts as well as an economic 
development agency. It's called Education Innovation Partners. 
One of the three things that they're trying to do is to have 
technology across all of the schools in our area so that if 
Hibbing High School can offer physics every year, then a 
student in Chisholm High School 5 miles away, who normally 
wouldn't be able to take a physics class in high school, can 
take that class via online Web--that interactive classroom with 
a school down the road. That's one of the really important 
things.
    At one of my target schools that I work with, a couple of 
years ago there was a cohort that graduated, and I tracked what 
classes they took and how many students actually got that sort 
of rigorous course curriculum. Only 39 percent of our target 
school students graduated with a rigorous course curriculum. 
And in one of those years, zero low-income students from that 
school graduated with that, because it is not offered, and they 
don't know those are the classes they need to be taking. So 
that's certainly an issue we see in our K-12 system.
    The Chairman. Thank you.
    Mr. Giles, you said something about going to K through 16. 
I look upon it differently. It ought to be zero to 12, not K to 
12. We must understand that learning begins at birth. The vast 
formation of both cognitive--and I think I'm speaking correctly 
here--both cognitive and non-cognitive reasoning begins much 
earlier in life than kindergarten.
    We know that low-income kids without being in any kind of 
early learning program start as much as 2 years behind, both in 
literacy and language skills, than those who went to 
preschool--as they say, preschool. I call it early learning. I 
would think that if we had universal early learning for all 
kids, regardless of income, a lot of these problems would be 
taken care of. Now, that's just one.
    Why do rich families stand in line to get their kids in 
preschool? I can tell you my own experience. My kids went to 
preschool. We lived in a neighborhood that was mixed. Kids who 
had money, like my kids, went to preschool. Low-income kids, 
Hispanics, blacks--they didn't go.
    When they went to public school later on, they were ahead. 
They weren't necessarily any smarter than these kids that 
didn't go. But they had that--excuse my phrase--head start. So 
I think we've got to start focusing on that early learning 
aspect for low-income kids.
    The second thing I'll just say is that we're trying to 
change the K through 12 system from the No Child Left Behind 
punitive aspects to a college- and career-ready system. Now, 
what does that mean? That means--what do you need to know, what 
do you need to have at your senior year in high school in order 
to go to college without remedial help? And what do you need in 
your junior year to get to that? What do you need in your 
sophomore year to get to that? You just keep backing that up 
all the way.
    That's the whole idea behind college- and career-readiness 
in elementary and secondary education. That's what's in our 
ESEA bill that we reported out of our committee last year to 
try to change that dynamic, so at the earliest time, the goal 
is what do you need at that point in time to be college- and 
career-ready.
    Senator Murray--I'm sorry--has to go to the floor.

                      Statement of Senator Murray

    Senator Murray. Mr. Chairman, I won't take time to ask 
questions. I'll just say amen to what you just said, and I 
really appreciate your focus on that and couldn't agree more.
    I do have to get over to the floor, but I wanted to thank 
Mr. Liang from the State of Washington, who has just been a 
real leader in our State in helping us get the collection data 
and evaluations so that these programs work. I recognize the 
tremendous work that he has done.
    I really appreciate the focus of this hearing. I think that 
the more we work in this committee to focus on making sure kids 
get what they need--I think we have to not just focus on a 4-
year degree, but what path it is they need past high school to 
get those jobs that we all want them to have. It's really 
important, so I appreciate it very much. Thank you.
    The Chairman. Thank you very much, Senator Murray.
    Senator Baldwin.

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you, Mr. Chairman. I appreciate the 
opportunity for this dialog and this roundtable. And as Senator 
Murray leaves, I'm going to let her know that I'm going to ask 
at least one question relating to your leadership role with the 
higher education access and success for homeless and foster 
youth in a moment.
    But before I get there, I note that a couple of witnesses 
have mentioned my home State of Wisconsin. Our State has a long 
history of participation in TRIO. Marquette University, where 
Ms. Hoyler spent some time, started participating with the 
Student Support Services Program in 1969. And the University of 
Wisconsin Madison is celebrating its 20th year in TRIO 
programs. Many other institutions have participated. They have 
produced some really impressive TRIO success stories.
    Mr. Chairman and Ranking Member, I'm going to submit a 
number of those stories for the record, because I think, like 
Mr. Griggs' testimony, hearing about the experience, what 
helped and perhaps some constructive criticism and suggestions, 
is helpful to our committee. They're both moving and 
informative.
    There are two, though, that I would like to share while 
we're here. One is a member of my own staff, who was a McNair 
scholar and part of the Educational Opportunity Program at 
Marquette University. He has shared with me and his colleagues 
on staff that TRIO truly leveled the playing field for him as a 
first-generation, low-income college student. He is an integral 
part of my Senate staff, and that is thanks in no small part to 
the education he received at Marquette and the support that was 
provided through the TRIO programs.
    Perhaps, though, the best known TRIO success story is 
Wisconsin's own Congresswoman, Gwen Moore. Gwen started college 
at Marquette as a single expectant mother on welfare, who could 
only complete her education with the help of TRIO. She went on 
to serve in the Wisconsin State Assembly, the Wisconsin State 
Senate, before her years of service in the U.S. Congress.
    [The information referred to follows:]

                 Prepared Statement of Senator Baldwin

    Thank you, Chairman Harkin and Ranking Member Alexander. 
Colleges and universities in my State have produced so many 
TRIO and GEAR UP success stories from Wisconsin, I could 
literally spend hours sharing their experiences and how these 
programs changed these students' lives. In this longer 
statement, I'd like to submit a handful of these Wisconsin 
success stories for the record:

    Tommy C. Walls, Jr.--Marquette University

    The TRIO Program have helped me tremendously throughout my 
high school and college experience. I first became a member of 
the Upward Bound pre-college programs to help me with academics 
and life skills and college preparation. I then became accepted 
at Marquette University's Educational Program. Overall, with 
out the TRIO Program I would have not had access to endless 
opportunity that has helped me grow today! I had the 
opportunity to participate in the McNair Program research 
disparities in Urban communities involving crimes of youth and 
non-violence strategies. I completed an internship with Senator 
Kohl and also spent 2 weeks in Ghana, Africa, where the Council 
for Opportunity In Education helped sponsor my trip. I studied 
Ghana's Government, Democracy and Public Policy. Furthermore, 
TRIO has helped me so much in my preparation for graduate 
school, where I have currently been accepted to Saint Louis 
University and Loyola University's Master of Social Work 
Programs! I look to eventually earn my Masters and Ph.D. to 
become a CEO/President of a Non-Profit Youth Development 
Agency. I would have not had such opportunities if it had not 
been for the support, professionalism and dedication of my TRIO 
programs. It had not only made my vision possible, but also any 
other scholars around the Nation.

    Xiong Her--Marquette University

    Marquette University's Upward Bound gave me the opportunity 
to explore colleges and universities around the United States, 
and it opened my eyes to great opportunities which will help me 
achieve my dream.
    English is my third language, and education is a difficult 
path, but UB challenged me to move beyond my comfort zone and 
prepared me to face and experience all the difficulties that 
are ahead of me. They provided me with extra classes as well as 
tutors to keep me on track and prepare for my college path.
    UB helped me look for my passions, gave me the chance to 
graduate high school and attend my dream university. The 
program also taught me how to be an influential leader in my 
community as well as in the future. UB is my family, and not 
only have they improved my academic talents but as a whole 
person with qualities like responsibility and respectful 
manners.
    It's my first year of college, and it is tough and 
difficult to adjust into college life, but SSS provides me with 
useful resources which help me to feel less stressed about the 
college workloads. SSS has given me personal tutors to guide me 
through my challenging courses. Both SSS and UB staff are 
willing to stay after their work times to help us, the 
students, study and to finish class work.

    Christian Villanueva--Marquette University

    Thanks to McNair I have been presented a wonderful 
opportunity to be able to attend graduate school and make life 
decisions that I believed was not realistic prior to the 
program. Through the program I have gained two nursing mentors 
that have been essential in my growth as a researcher and 
future Ph.D. recipient.
    EOP has been a blessing to me while being at Marquette. I 
have the assistance and guidance of wonderful staff that has 
been supportive and willing to assist me whenever I have been 
confronted with a dilemma in my personal and educational life. 
The EOP staffs at Marquette University are amazing people that 
are a necessity for us to continue to combat the educational 
disparities in our country.
    Monica Purifoy--Marquette University

    For every year that I have been enrolled as a student at 
Marquette University, I have been able to build and develop 
both my skills and confidence as a student. Every year, my 
academic success has shown me that, regardless of the culture 
or demographics of any given institution or community, I can 
maintain and shine in that environment. The staff of 
Marquette's Trio programs is responsible for a great deal of 
this development.
    The academic support that I have received from EOP-SSS has 
been essential to my success at Marquette. Without it, I would 
not have survived.
    Working with Upward Bound and EOP's summer programs as a 
student counselor has helped me in discovering my passion for 
working with inner city youth in a school environment. My 
undergraduate experience has unveiled the potential I have to 
successfully achieve my aspirations and to go beyond what I 
thought was my reality.
    While working with the EOP-SSS summer program, I was 
introduced to a staff member of Marquette's graduate school, 
Dr. Kevin Tate. Through my participation in the McNair Scholars 
program, we will be working together this summer on a research 
topic. Dr. Tate is also helping me apply to graduate programs 
in school counseling.

    Toua Thao--University of Wisconsin-Madison

    My family escaped from Laos during the Vietnam War to a 
refugee camp in Thailand. I spent 10 years in the refugee camp 
without a chance to have a formal education. Life in the camp 
was hopeless and stressful, not much different from life in a 
prison. With no other options, I decided to come to the United 
States with the hope for a better life. I arrived in Madison, 
Wisconsin, in the winter and had a chance to attend a formal 
education at Madison West High School. I started to realize 
that my parents' dream of me being a teacher or doctor could 
come true as education was accessible here. Although learning a 
new language and adapting to a new culture at the age of 19 was 
extremely difficult for me, I knew that education was the key 
for a better life and an opportunity for future success. I 
finally graduated from Madison West High School and was 
admitted to UW-Madison. I was the first person in my family out 
of 11 children to have the chance and honor to walk during a 
high school commencement.
    I would not have come to nor graduated from UW-Madison if 
it had not been for TRIO SSS. I graduated from UW-Madison with 
an Undergraduate degree in International Relations and went on 
to complete my Graduate degree in Counseling Psychology. As a 
low-income, academically underprepared, and first generation 
college student, my academic experience at a large university 
like UW-Madison was extremely difficult. The campus and class 
size were big for me. I got lost, cried, and gave up so many 
times, but TRIO SSS was always there to help and motivate me. 
My TRIO advisor always checked with me to ensure that my 
academics were going as well as my physical and emotional 
health. I had great difficulty with my readings, lectures, 
assignments, essays, and note taking. Fortunately, with the 
support and services provided by TRIO, such as tutoring, 
mentoring, note taking tactics, advising, courses selection, 
and study skills, I was able to do well in my classes. One very 
special and unique quality of TRIO was that the program created 
and provided a warm and welcoming environment for students. 
Although the campus is huge, TRIO was a place where I had a 
sense of belonging. I felt comfortable and welcomed. The 
accessibility and flexibility of my TRIO advisor and other 
staff members made a great difference in my academic success. 
TRIO was like a second home for me. There were staff members, 
advisors, and students who came from different cultures and 
backgrounds and that made me feel comfortable. With the help of 
my TRIO advisor, I also discovered the advantages of the study 
aboard programs and spent 2 months in China and a year in 
Thailand. I even returned to Thailand as a graduate student to 
research how the Thai educational system affects Hmong and 
other hill--tribes. In addition, I obtained my doctoral degree 
at Edgewood College. I will always be grateful and appreciative 
that TRIO has made a huge difference in and provided the 
opportunity for the success in my life. Therefore, I feel it's 
a great honor to be able to help others and make a difference 
in their lives. I once was searching for an accessible 
educational opportunity and finally found one, it was a long 
journey.
    Consequently, I'd like to see educational opportunities be 
accessible and available to others as it was to me. TRIO SSS is 
a significant part of my successes.

    Deiadra Gardner--University of Wisconsin-Madison

    CeO has provided advocacy for me, a shoulder to cry on and 
another set of brains to help me figure life out when things 
get rough. It has been a place for me to go between classes and 
never get ill--vibes. It's been a place that I can call my own, 
stretch out my wings, and show my personality 100 percent. It 
has been the support system I think everyone needs when coming 
to college.
    CeO really brought into focus how important education is 
and how there are resources out there for your college career 
to go more smoothly. If students have any questions, concerns, 
or need clarification on things, they are welcome to come in 
and ask, and any staff member will ensure the issue gets the 
attention it deserves. The dedication of the program is 
remarkable and ensures the ability to assist or get assistance 
for any of the CeO students.
    CeO is like a club or family that you're a member of. 
Depending on how much you use it, that determines the depth of 
your connection to the program. If you ever need a place to go, 
need to study, need to chat with someone, or just need some 
kind of nourishment (LOL), come to the CeO office and the 
people there will help, and genuinely care. CeO promotes 
excelling in one's schoolwork, so the mission and everything 
that is done is designed around improving students' 
environments so they can be competitive students.

    Africa Lozano--University of Wisconsin-Madison

    ``Go and get your Educations Worth'' no matter what your 
circumstances are!!! I am originally from Montebello, Cal but 
moved to Madison, WI when I was 13 years old. I had a very 
drastic change in weather, climate and most of all, PEOPLE. I 
went from a predominantly Mexican community in Montebello to an 
all-white school in Madison. I attended Edgewood High School, a 
community that was totally the opposite of my upbringing. 
Students with high income, parents driving Lexus, Mercedes and 
much more to offer than my parents who did not have a 
bachelor's degree but offered me the best support that I could 
have because without them, I would have not made it as far as I 
did.
    My academics and athletic performance were my tickets into 
UW-Madison until I met Mr. Kirk Malnor at Edgewood's Edgefest. 
He was very supportive and eager for me to learn about TRIO 
Student Support Services (known as CeO). Once I got to learn 
and hear more about the program, I knew that the program was 
going to help me with my transition into college and succeed as 
a doctor. Upon matriculation into UW-Madison, I knew that I 
wanted to play softball at the collegiate level because it was 
always a dream of mine to play at a top ten university while 
pursuing a degree in medicine.
    Once I attended UW-Madison, I became very familiar with 
campus and organizations, and started my social network as an 
undergrad but, unfortunately I could not be as involved as I 
wanted to because I was a full-time athlete and student. I had 
my share of ups and downs while being a woman of color on the 
softball team but that did not push me away because I was 
determined to stay and overcome my obstacle as I have all my 
life growing up. While pursuing my goals and overcoming the 
many obstacles, I found many outlets like the TRIO program that 
helped my whole college transition be a more pleasant one. With 
the many experiences that I had, I soon realized that my 
passion was working with students who had similar life 
experiences as myself. I graduated with my bachelors in Human 
Development Family Studies and Women Studies Certificate.
    Due to the student support services program and my 
determination, I later pursued a degree in Educational 
Leadership Policy Analysis in Higher Education at UW-Madison 
because I too wanted to show my appreciation to my parents and 
community. And most importantly, I wanted to demonstrate that 
no matter how rough an individual's life is, there is always a 
way out and people who are willing to help if you make the 
time. ``Hard Work pays off !''

    Sarah Axtell--University of Wisconsin-Green Bay Upward 
Bound

    Upward Bound completely changed my life! Without it I never 
would have had the opportunity to see so many colleges and 
never would have dreamed of applying to some of the colleges 
that I did. I was very lucky to have the opportunity to be part 
of such a great organization.

    Amanda Flannery--Ripon College

    In 2006 Amanda Flannery entered Ripon College following 
participation in the USDE TRIO Talent Search-Upward Bound 
program sponsored through the Crandon, Wisconsin public high 
school system. Upward Bound identifies and prepares talented 
but relatively underexposed first generation-low income 
students for college entry. On one of Amanda's Upward Bound 
visits to Ripon College, she learned about the next level of 
TRIO programs operating at the Ripon called, Student Support 
Services, which guides and supports similar students through 
college to graduation, offering a wide variety of academic and 
cultural information and services. Amanda was an extremely 
motivated individual and took full advantage of the SSS program 
and achieved Dean's List honors in every semester during her 
Ripon undergraduate career. During Amanda's sophomore year at 
Ripon, Student Support Services applied for and received a 5-
year TRIO McNair Scholar's graduate school preparation grant 
from the United States Department of Education and Amanda, with 
a degree in anthropology and history, was accepted in to the 
program following her application and interview. One of the 
major components of McNair is giving scholars the opportunity 
to undertake research with a faculty mentor, which Amanda 
completed as she researched how collaborative efforts between 
students and the community was the most valuable way to educate 
both groups about archeological investigation. In the summer 
following graduation from Ripon College with honors, Amanda 
participated in archeological work for the State of Wisconsin 
and also participated in archeological field work at the 
University of Southern Illinois before being accepted for 
graduate study under a fellowship at the University of 
Wisconsin-Milwaukee in Anthropology, with an emphasis in 
historical archeology leading also toward a certification in 
museum studies. Amanda graduated from UW-Milwaukee in December 
2013 and is currently employed in a public library inventorying 
their local history collections and facilitating public 
programming.

    Senator Baldwin. The stories are powerful. The statistics 
are also very, very powerful. And not to keep on picking on 
Marquette, but the Student Support Services Program's average 
6-year graduation rate is 67 percent compared with a national 
graduation rate for first-generation, low-income students of 11 
percent.
    The University of Wisconsin McNair scholars are similarly 
remarkable. In the past few years, 100 percent of the McNair 
scholars completed a bachelor's degree, and 85 percent have 
been accepted into graduate programs, which is really 
encouraging and impressive.
    I wanted to say just a couple of things about GEAR UP. In 
preparation for this hearing, we asked some of our stakeholders 
across the State of Wisconsin for feedback, not only on the 
successes, but also where there is room for improvement. Along 
with the success stories, we heard numerous--and I'll submit 
them for the record for the committee, also--ideas like 
providing greater support for advanced placement test 
preparation and increasing minority teacher recruitment.
    I'd love to hear--and if you want to submit ideas in 
followup--ways in which we might improve GEAR UP successes and 
opportunities to grow the program's impact. Does anyone want to 
jump in now?
    [No response.]
    Well, then, let me jump on to the other topic I indicated 
that I wanted to address.
    Mr. Griggs, you talked in your testimony about the unique 
barriers you faced, and, certainly, we know that homeless youth 
and youth in foster care encounter an incredible set of unique 
barriers to accessing higher education. I am proud to be a 
supporter and co-sponsor with my colleague from Washington 
State, Senator Murray, of legislation that will help remove 
some of the barriers that homeless and foster youth have and 
help provide what they need to succeed.
    I do have questions, however, about how well our current 
college access programs are serving homeless and foster youth 
and other people who might be the most disadvantaged among 
those that we're serving with TRIO programs. So I guess I'd 
like to hear your perspective on how we're doing there and 
certainly from others on the panel on what we need to do to 
ramp up services, particularly to homeless youth and foster 
care students.
    Mr. Griggs. Well, from my own personal perspective, growing 
up as a ward of the State in Illinois--my birth mom lives in 
Wisconsin. She's in Milwaukee. Being a ward of the State from 
the age of 9 until I was 21 was a challenging process. And TRIO 
programs in themselves allowed me the opportunity to have 
someone that I could communicate with that could give me not 
only just guidance from an educational perspective, but also 
guidance on life and where I needed to go and how I needed to 
get there.
    When you're going through the system, as I like to call it, 
as a 9-year-old living in a shelter for a few years, bouncing 
from a group home, and then living with multiple different 
families, you get a lot of different advice. All of it isn't 
good, because a lot of times, you get placed in homes that only 
want you there because a stipend comes with you, and they're 
not providing you with the access that you need to be 
successful, because a lot of times, they can't see past the 
next day.
    TRIO professionals were there to give me that guidance past 
the next day, to say, ``Look at your future and see where you 
could be. What do you want to be when you grow up? Where do you 
see yourself?'' And without that type of mentoring and 
guidance, I definitely would not be able to sit here and have 
this conversation with you intelligently because I would not 
have gained the necessary skills at a younger age to be able to 
have a dialog like this.
    Ms. Hoyler. Our concern as the organization that represents 
TRIO programs is that services provided to students in foster 
care or aging out of the foster care system be continuing. Our 
experience is that students in foster care get a lot of stop-
and-go services, and that when we are successful in TRIO in 
serving students in foster care, it is because of the long-term 
relationship.
    A program like Talent Search, which Mr. Griggs was in, is a 
low-intensity program. It costs, on average, less than $450 per 
student. And in order to make that effective broadly, we have 
to think about it. We can't just say, ``Well, let's require all 
Talent Search programs to serve students in foster care.''
    In terms of homeless youth, many times our programs learn 
that students are homeless after they are serving them, because 
high school students and college students move from friend to 
friend or uncle to aunt to neighbor. We are serving many, many 
homeless students, and we definitely want to serve this 
population, but we want to make sure that the regulatory 
requirements that we serve particular schools or particular 
areas don't limit our ability to do that, and that everything 
possible is done to make sure that we can have long-term 
relationships with these young people.
    Another thing that I think is an important distinction to 
make is that many young people in foster care are not in what 
we kind of conceive are in foster homes. They're oftentimes in 
group homes. They're in an institutionalized setting. The 
numbers in terms of transition to adult life are really awful, 
and so we have to have people that are really able to work 
those systems, with the expertise to work those systems. It 
takes a lot of expertise, as Mr. Griggs said. It is complex. It 
is not just good will, so we want to do it right.
    Mr. Giles. I want to echo what Mr. Griggs and Ms. Hoyler 
said. I think that there are just two concrete things that I'd 
like to suggest. One of the advantages of the GEAR UP program--
and we administer both GEAR UP and Talent Search in my agency--
is that the cohort model allows us to serve a broader range of 
students.
    One of the challenges that we faced--we actually took over 
administration of the Chafee ETV Grant just because the silos 
between human services and education and college access were so 
great that we felt this was our responsibility to start 
administering that program. So very concretely, the ETV 
program, the Chafee program, doesn't have enough college access 
counseling, but it has some money.
    Folks in human services are not trained or prepared to 
provide the support that the TRIO and GEAR UP programs provide. 
So I think that's one area where we could actually make some 
concrete changes that would make the money that we're already 
investing significantly more valuable.
    The other thing that we started doing is working with 
caseworkers to actually train them, at least in rudimentary 
career and college planning services, so that they can also 
start to reach some of the students that we're not getting.
    Mr. Harris. I want to talk a little bit about some findings 
from the Upward Bound experiment that I think pertain to what 
you're saying. One of the things we did is we looked at what 
the program operators in Upward Bound report about who they 
would screen out of the program. And they are statutorily 
required to serve low-income, first-generation students.
    But it looked like in the surveys that they would say that 
students who have high rates of absences and who don't have 
high college expectations and have more behavioral difficulties 
are likely to be screened out and not included in the program. 
I think a lot of the students you're talking about, homeless 
students and foster care students, are going to be the kinds of 
students who get screened out in that process.
    My guess is the perception from the program operator's 
standpoint is that they see students in that situation who 
don't end up making it to college at very high rates. But I 
think that's missing the point. The point of these programs 
should be for whom are they likely to increase the odds most? 
How can we help these students the most?
    It might be that only 20 percent of those students who are 
in the homeless category end up making it to college. But 
that's going to be higher than it is without the program. So I 
think when we start thinking about it that way, and if we can 
do more in the way the rules are set to encourage the programs 
to include those students, that would be a big help.
    They're also under the gun from the regulations to make 
sure they meet performance standards, to make sure a certain 
percentage of their students served are making it on to 
college. So it implicitly discourages them from bringing in 
students who have a very low probability of getting in. 
Something would have to be done in the regulations to encourage 
that on a widespread basis. And given the results we're 
finding, it suggests that those are the students who will 
benefit the most.
    Mr. Liang. In Washington, we recognize that the foster 
children are really an integral part of our services. We work 
with children's services to get messages--the early awareness 
and also other support for the foster care children. We have a 
summit annually to work together as partners with nonprofit 
organizations and with children's services to provide services.
    Some of the services are delivered through what Scott 
mentioned, the cohort model of GEAR UP, so students in the GEAR 
UP cohort would receive services, in particular. Because of 
some restrictions, we sometimes cannot identify who they are, 
but we're able to provide a more blanket service to the cohorts 
or through the cohort service.
    This is one of the three support areas that we're thinking 
about--academic services, social support services, and 
financial aid services. And especially for foster children, the 
social support services is most important.
    The other thing--I want to go back, just for your 
information, to Wisconsin GEAR UP. Wisconsin State GEAR UP is 
one of the members of the 15-State consortium for college- and 
career-readiness evaluation. So Bonnie Dockery is a leader in 
that area. She just retired, unfortunately. We will miss her. 
But Wisconsin is one of the members.
    The Chairman. I'm going to call on Senator Franken who 
wants to have an intervention.
    Senator Franken. I just want to make a short comment about 
foster kids. We had some testimony from a young woman named 
Kayla from Minnesota that actually--I remember how struck you 
were by her testimony, Mr. Chairman. These foster kids very 
often are changing foster homes very frequently. It's very 
common that they'll have 9, 10, 11 foster homes throughout 
their childhood.
    It's important to keep them in the same school, or give 
them that option, because, very often, the one constant in 
their lives is the school. So in some of our reauthorization 
bills that have passed through this committee are provisions to 
make sure that kids who are in foster care, even if they change 
school districts--well, when they change school districts with 
a new foster parent, that they're able to stay at the school 
they're in.
    I think that continuity--especially when it might be a 
teacher or a counselor or someone else who is the one adult who 
is being constant in their life. That is just so important.
    The Chairman. Ms. Sertich.
    Ms. Sertich. Yes, thank you.
    Senator Franken, I'd like to respond to you briefly, and 
then I'd love to come back to Senator Baldwin's question about 
the proposed language regarding homeless and foster youth.
    The TRIO programs are a constant in our students' lives, 
and even if they change to another district, oftentimes, it's 
within the geographic region that they live in. So we work as 
hard as possible to continue serving those students. Even if 
they go to a high school that's 25 miles away, we find ways to 
serve them and to help them so that they have that continuity. 
Thank you for bringing that up.
    And, Senator Baldwin, I've seen at least a version of the 
proposed language regarding homeless and foster youth. I'd like 
to speak a little bit to the financial aid piece of it. I've 
seen some language that says that TRIO programs can designate 
students as homeless. Otherwise, there are other hoops to jump 
through on a FAFSA to be able to be eligible for certain things 
because of your homeless status.
    If TRIO programs were allowed to have that power because of 
our relationships with the students and knowledge of their 
situation, that would certainly remove barriers for those 
students to get their FAFSA filled out correctly and in a 
timely manner.
    The Chairman. Thank you very much.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you to all of you. This has been really wonderful to 
hear. I just want to make two very quick comments and then a 
question. First, I just want to underscore how important this 
program is, especially for families where English is not the 
primary language. I've been long involved with our TRIO and 
GEAR UP programs in Connecticut, and like Senator Baldwin, I 
got a lot of input in preparation for this hearing.
    A lot of the testimonials were very similar to this one 
from Jessica Coraizaca, who said,

          ``As a first-generation student going to college, I 
        did not know anything about the process. My parents did 
        not know about the college process, and their English 
        skills were not too advanced. That's why I will always 
        thank my advisors at Upward Bound for helping me 
        develop the skills that were needed to survive in 
        college and for helping me with an application 
        process.''

    The second thing I just wanted to mention is that one of 
our panelists repeated what I believe to be some mythology that 
has developed around the effectiveness of Head Start. I am, 
along with Senator Franken, a member of the Paul Tough caucus, 
who reminds us in that book that though there is a study that 
says that on certain academic skills, the advancement that 
happens in Head Start can disappear by third grade, most or all 
of the long-term longitudinal studies of kids who participate 
in Head Start show that on a host of long-term measures, 
whether it be how many of them go to college, measures of their 
physical health, do they end up in trouble with the law, all 
tell you that because Head Start is building character as well 
as actually helping kids with academic skills, there are 
tremendous long-term benefits.
    My question, though, is off of Senator Burr's question. He 
asked a great simple question, which is what can K through 12 
do better. My question, at its essence, is pretty simple. What 
can colleges do better to help at-risk kids once they walk in 
the door?
    What we know is that there is a really wide divergence of 
retention rates from college to college. Some schools get it, 
and they identify kids who need a little bit of help early on, 
wrap their arms around them, and help them. And other schools, 
frankly, are not doing the work necessary to help those kids. 
And there's all sorts of new innovative technological tools 
that can help schools identify kids who in that first 6 months 
just aren't measuring up.
    So I guess my question to you all is twofold. What, in your 
experience, can colleges and institutions of higher education 
do better to help your students once they come in the door? 
And, second, are we doing enough within GEAR UP and Upward 
Bound and TRIO to help students who are applying to schools 
identify those schools that are actually going to provide the 
support services and identify the schools that have pretty low 
retention rates and might not be the best place for kids to end 
up?
    Ms. Sertich.
    Ms. Sertich. Yes, thank you. When we are looking with our 
Upward Bound students at college choices, one of the first 
things that we do--and, obviously, we know off the top of our 
head in Minnesota which colleges have them. But does the 
college they're looking at have a student support services 
program, because the TRIO SSS programs do the intensive 
advising. They provide tutoring. They, at the community college 
level, help with looking at transfer options for students who 
are seeking a bachelor's degree.
    So they're really critical programs in helping the students 
you're talking about, who gets there, but then what?
    Senator Murphy. Mr. Giles.
    Mr. Giles. I think that, really, there are kind of two 
things going on right now that I think are interesting. Within 
the GEAR UP program, there are two different kinds of grants. 
There are partnership grants and State grants. The partnership 
grants are really housed at institutions of higher education, 
and they're doing some really interesting things to work back 
into the high schools and middle schools in their communities 
and work with those students from middle school through high 
school, and then continue to support them once they enter their 
particular campuses.
    The second thing I would say--I just want to echo what Ms. 
Sertich said. One of the challenges for these students is that 
we have provided them a great deal of support, and they may 
have been part of a group that has gone through this process 
together.
    There's some experiments that we're engaged in right now. 
It's called the Seventh Year Program in GEAR UP, where we're 
continuing to follow that group of students for that extra 
year. And I think part of the power of this is that if we can 
have a group of students that have been together in some 
context with common experiences--this is all new to them in the 
same ways--and we can wrap some of the support services around 
them, we expect that we're going to see much higher 
continuation rates.
    Senator Murphy. Ms. Hoyler.
    Ms. Hoyler. There are a lot of factors in higher education 
right now that work against institutions wanting low-income 
students and wanting those students to succeed. The whole 
ranking system, the financing systems--there's many factors 
that are large factors.
    This committee's leadership on the importance of low-income 
students being successful in all categories of higher education 
is really, really important, because, ultimately, it is a 
matter of will. If college presidents and Governors and 
Senators want low-income students to graduate from our 
institutions of higher education, they will graduate. And if it 
is not a priority for the country, they won't.
    Senator Murphy. Dr. Harris.
    Mr. Harris. I have a few observations on this. I think 
there's another effort going on right now to change the 
performance measures for colleges that I think would change the 
incentives a bit to encourage the colleges more. But in terms 
of specific programs, I've come across a few that I think make 
a lot of sense.
    I think one general theme is that there needs to be more 
kind of active involvement of the colleges in tracking students 
who are having difficulties rather than passive. So you could 
have services available, but students are generally not going 
to avail themselves of those. They're not going to seek it out.
    The problem with the way colleges are set up, unlike K-12 
schools, is that they don't have an attendance system, per se. 
That's the professor's responsibility. So you don't necessarily 
see right away when a student stops showing up unless the 
professor reaches out to somebody at the university. Tulane 
actually has a program like that where they actively remind the 
faculty to let them know if there's a problem so that they can 
intervene.
    There's an interesting program at a community college in 
Iowa, actually, Des Moines Community College, where they have a 
call center, and if somebody starts off in classes and stops 
showing up, they call them and ask, ``What's going on that we 
can help you with?'' And if they started, and they're 
attending, and then they don't enroll the next semester, they 
call them and ask, ``What's going on? Is there anything we can 
help you with?''
    So I think it's really cheap. It doesn't cost a lot to do 
something like that, and I think it's more a matter of the 
change in perspective at the college level. But in having a 
more active engagement, I think part of the perception is that 
these are adults now. They're 18. They're on their own. They 
have to figure it out. And I think for a lot of these students, 
that's not going to work.
    Senator Murphy. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman.
    I want to ask another question about the GEAR UP and TRIO 
programs. As I understand it, these are really the only 
significant programs that really aim toward completion and 
access issues. And if these programs were running perfectly, 
and you were all the way out at the edges of what you were able 
to accomplish--you get about 800,000 kids through in a year--I 
have a scale question.
    By the year 2020, we know that about 65 percent of all jobs 
are going to require some kind of post-secondary education. If 
we stay on our current trend line, we're going to be about 5 
million young people short of meeting that goal. We also know 
our current college completion rates. We've got about 55 
percent completing within 6 years.
    So this tells me we've got to get more people into school, 
post-secondary. We've got to get more of them out, that is, all 
the way through. And I'll just make the note off to the side 
that it has a powerful impact on things like whether or not 
they can pay their student loans. So all these pieces 
intersect.
    The question I have is a scale question. The direction that 
we're headed says we're going to fall short in getting the kind 
of results that you are working toward. So what ideas do you 
have for how we can scale up? And we have to think about this 
in a cost-effective way. Are there specific things that you can 
identify where it's something we can scale up cheaply? Are 
there other approaches we should be using? That's really where 
I'd like to start this.
    Ms. Hoyler. TRIO programs have two components, access 
programs and completion retention programs. If you take the 
completion and retention, however, as they've been 
administered, the grant sizes are equal regardless of setting, 
based on historical issues. However, if you take institutions 
that are serving tens of thousands of low-income students, they 
may have the same size of a grant and the same capacity as an 
institution that is serving or enrolling 600 low-income, first-
generation students. That issue of institutional capacity needs 
to be looked at if you want to scale up.
    The same thing is true at the pre-college level. If you're 
serving schools where 90 percent of the students are low-
income, first-generation students, there's issues of scale 
where we could serve the whole school at a lower cost per 
student than we--and now we're not serving the whole school.
    I would defer to some of my GEAR UP colleagues. But one of 
the problems I have with GEAR UP is--and I think the TRIO 
community does--because of the cohort model, you might serve a 
class of ninth graders, but then the next class of ninth 
graders doesn't get served. And in our view, you need a 
continuing Federal commitment. If you're going to be in a 
school, you should have that continuing Federal commitment. So 
that would be a question that I think needs to be explored.
    Senator Warren. Very interesting.
    Ms. Sertich.
    Ms. Sertich. Just to speak to that scale and to speak to 
who we serve, how many we serve, in my area--and I'm in rural 
northern Minnesota--I serve four schools, and 48 percent of the 
school population that I serve are eligible for free and 
reduced lunch. So they are TRIO eligible students at these high 
schools, and that doesn't even take into consideration whether 
they have first-generation status or not. So it's a larger 
number than that. My grant serves 15 percent of the students in 
my target schools, and more than half of them qualify for TRIO 
programs.
    Senator Warren. So I'm hearing two things. I'm hearing 
allocate the grant dollars differently or at least look into 
whether we want to allocate differently. And the second one is 
you've got to put more dollars into it. Fair enough?
    Ms. Sertich. Yes. And within the programs themselves, we 
need money to match the services that are in legislation for us 
to provide and that we agree that we need to provide. But we're 
not able to fulfill all of those to the limits, as you said, 
which we would like to do, and those, obviously, would get 
better results if we were able to do to the limits--what we 
have written into legislation.
    Ms. Hoyler. Can I clarify what I said? I'm not saying that 
we should take money from somebody and give it to somebody 
else. I'm just saying that where you have a huge number of 
unserved individuals, you need to look at how to expand your 
ability to serve those unserved individuals at colleges, 
particularly in terms of retention services, and in high 
schools, particularly when you're serving only a small 
percentage of the students that you're serving. But to take it 
from a high school so that no--I'm not saying you take it from 
somebody else.
    Senator Warren. I understand your point. But we do have 
both questions on the table. I fully understand the notion just 
to say let's put more money into the program. But we're also 
going to have to find some scale here. It's not just going to 
be about pumping more dollars--I mean, it's just not going to 
happen. We may get some--willing to fight for it. But there are 
allocation questions that we're going to have to address.
    Mr. Giles, you wanted to add?
    Mr. Giles. Yes. I just wanted to add a piece to that, 
because I support both points that were made with an additional 
one. I think that there's something we need to explore further.
    One of the things that GEAR UP allows us to do is work with 
that cohort model, where we can adopt a whole school. And I 
think that to your scale point, in addition to allocating the 
resources, the question is how you embed the work that we all 
do in the education system so that we're able to amplify the 
expertise that we have by training teachers, training school 
counselors, training everybody within that institution from the 
leadership on down to support our work.
    Senator Warren. Mr. Liang.
    Mr. Liang. In terms of scaling up, definitely, there's a 
dollar issue. In the 2011 GEAR UP competition, there is about a 
million students that are not served because of the reduction 
of the funding.
    But in Washington, what we're doing now is we have just--by 
the request of the Governor and the legislature, our agency led 
the study of a roadmap for the next 10 years. And we find that 
our goal matches what you described in 2020, and we're saying 
in 2023, we're going to have 70 percent of students with 
credentials.
    So we're aiming high, and in order to scale it up--
Washington State is the only State that I know of to put actual 
money into GEAR UP, and that could be a partnership in that 
way. Institutions could be a partnership if they recognize the 
value of the GEAR UP and TRIO services. So those are all 
potential ways to scale it up.
    Senator Warren. That's an interesting point.
    Dr. Harris.
    Mr. Harris. A few observations. At a fairly general level, 
you're talking about scale, and you're talking about getting 
millions of students to graduate. I think the only way to reach 
a goal like that is really through the community colleges.
    The community colleges are important for several reasons. 
One is they are less expensive than the 4-year colleges. 
Second, the kinds of jobs that are available are the ones that 
are more targeted toward 2-year graduates right now. And that's 
where the students are in vast numbers.
    You're not going to move large numbers of students from 
being high school graduates to 4-year college graduates. But 
you can move students from being high school graduates to 2-
year college graduates much more readily. So I think having a 
focus on the 2-year colleges is important.
    I had a paper, actually, that the Brookings Institution 
published a few years ago on this, on things we might do at the 
community college level to encourage greater success there. 
This included things like just simply basic stuff, like 
reporting the persistence rates, you know, publicly reporting 
those things and having some sort of a report card to put a 
little bit more pressure on getting students through those 
programs.
    Senator Warren. Thank you.
    Dr. Haskins.
    Mr. Haskins. If we think that we're going to have a 
shortage of people with degrees to meet the needs of our 
economy, the first place to look, I think, is low-income kids. 
Because they're less likely to go to school, and they're much 
more likely to drop out, the dropout rate is more like two-
thirds from 4-year institutions for kids from low-income 
families.
    And I think the most effective way to make sure that those 
kids don't drop out at that rate, thereby increasing the number 
of people with degrees and increasing the efficiency of our 
investments, is to improve their performance during the K-12 
years. That's the main reason they drop out. They're not 
prepared. The remedial programs don't work.
    So we lose a lot of money that we invest in those kids. If 
we can improve that by improving the K-12 education and 
preschool as well, we'll do better, and we'll meet the need and 
do it more efficiently.
    Senator Warren. All right. Good. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warren.
    This has been a good discussion. Mr. Liang brought up 
something that I wanted to kind of close on, and that is ways 
in which maybe TRIO and GEAR UP can partner with other 
entities. These have always been essentially Federal programs. 
My staff has informed me that Washington State is the first 
State to actually partner on the GEAR UP program.
    But we haven't seen that in TRIO--even with institutions. I 
mean, the institutions that TRIO students go to benefit, 
obviously, from this program. I'm wondering if institutions 
shouldn't be somehow folded in to partner with some of these 
TRIO programs.
    Ms. Hoyler. I think at the college level--the retention 
programs and student support services--about 40 percent of the 
institutions that host student support services programs 
contribute funding.
    The Chairman. They do?
    Ms. Hoyler. They do. However, I think that the 
recommendation that you are considering is a very important one 
that we should look into. How do we incentivize both States and 
institutions to better support college access and success 
programs?
    The Chairman. Did you say to me that 40 percent of the 
institutions provide some funding for support services?
    Ms. Hoyler. That's correct.
    The Chairman. Why don't all of them?
    Ms. Hoyler. That's an excellent question.
    The Chairman. I'm going to ask my staff to find out which 
institutions make up that 40 percent, and why they are doing 
it, and how much they provide, and what about some of the other 
institutions. I don't understand that. I should find out about 
that. Maybe we can figure out some way of also incentivizing--
maybe in our reauthorization incentivizing States to come up 
and support these TRIO programs.
    It's been my experience here that if you get States 
involved with the Federal Government, you usually get more than 
just one and one equals two. You get one and one equals three. 
You just have a good multiplier effect when you get the 
institutions more involved in that.
    Did you have anything else you wanted to add?
    Senator Alexander. No.
    The Chairman. Is there anything else anybody wanted to add 
to this before we adjourn?
    [No response.]
    Again, I thank you all very much for being here. Thank you 
for this discussion. I hope that we can continue to be in touch 
with you as we develop our Higher Education reauthorization 
bill, and that my staff can continue to be in touch with each 
of you for suggestions, advice, things like that.
    With that, again, I thank you all very much for being here 
and providing some good insight into these programs.
    Thank you. The committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

  Prepared Statement of Andrea Venezia, Associate Professor of Public 
  Policy and Administration, Associate Director of the Institute for 
     Higher Ed. Leadership & Policy, California State University, 
                             Sacramento, CA
    It is an honor to be asked to provide testimony regarding the 
Reauthorization of the Higher Education Act. I will focus my comments 
on pre-college outreach programs. When these Federal pre-college 
outreach programs started, they were focused on access to college, not 
on success in college. Now we are asking them to ensure that students 
will succeed in college.
    Based on current knowledge, we do not know how to replace the 
programs in ways I am confident will be more successful. The Brookings/
Princeton proposal lists the following strategies as having some 
evidence of success: mentoring, summer programs, tutoring, help with 
financial aid, help with academic preparation, involving parents, and 
so forth. Those are the strategies that the current programs employ, so 
I am unclear about what new programs would be asked to do differently 
in terms of the heart of their work with students.
    There is evidence that current programs are succeeding; such data 
are even cited in the Brookings/Princeton proposal. For example, Upward 
Bound students who did not expect to complete a 4-year degree in their 
middle school years enrolled in college and finished their degrees more 
often than did similar students who did not participate in Upward 
Bound. That is precisely what we want.
    It's hard to compile useful evidence when we're comparing apples 
and oranges. We need greater clarity about:

    1. Outcomes. The field has not clearly defined which outcomes it is 
trying to achieve. The proposal suggests college enrollment and 
completion. There are also well-documented predictive milestones 
regarding college graduation, such as nondelayed entry into college, 
earning 20 credits in the first year, entering college without needing 
remediation, passing certain gatekeeper classes, and continuous and 
full-time enrollment. Monitoring student progress on such measures 
could help programs do course corrections and would help with 
evaluations.
    2. Students. Do we want to serve the students who can fairly easily 
tip over into a ``success zone'' with some additional supports, do we 
want to help the Nation's most underserved students, or do we strive 
for a middle ground? Those require different strategies and a different 
kind of intensity regarding the interventions.
    3. Strategies. While there are common terms being used--mentoring, 
tutoring, etc.--there is little consistency in how they are 
implemented, and there is little information about the basic principles 
that underlie sound practice. For example, is tutoring once a week for 
an hour sufficient? Or should programs embed tutoring into courses so 
that students receive daily supports? It is impossible to evaluate the 
effect of tutoring if the implementation of that practice varies across 
sites. Finally, ensuring that these programs offer interventions 
through college seems critical, if college completion is the goal.

    There are two other important issues I'd like to mention. The 
proposal focuses just on academic preparation. We know that academic 
preparation is the #1 indicator regarding college success. But we are 
learning that many students are not able to learn academics at high 
levels because they do not have the skills to be able to calm down, 
focus, bounce back in the face of adversity, organize effectively, and 
so forth. We're starting to see that leading with academics might not 
succeed until students are ready to learn academics at the levels 
required for post-secondary readiness.
    Second, the proposal appears to take a programmatic approach. There 
is evidence that students need a systemic/comprehensive approach--not 
just a program-based/siloed approach, especially for the big lift 
required to help students get ready to succeed after high school. How 
would the new program be integrated into existing structures (schools, 
communities)?
    Let's support existing networks and leverage knowledge from those 
networks; allow for new networks to be created; support experimentation 
within clear parameters; research and send crystal clear messages about 
who to serve, what works when serving them, for how long and at what 
level of intensity, and which metrics should be used; employ the best 
qualitative and quantitative methods at our disposal so that we not 
only know ``what'' is happening, but we also know ``why'' and ``how''; 
and help these programs succeed at new levels.
    Thank you.
                                 ______
                                 
                         Hon. Robert P. Casey, Jr.,
                                               U.S. Senate,
                                      Washington, DC 20510,
                                                  January 16, 2014.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Chairman Harkin: Thank you for holding today's important hearing, 
``Strengthening Federal Access Programs to Meet 21st Century Needs: A 
Look at TRIO and GEAR UP.'' Please accept this letter from Congressman 
Fattah as part of my statement for record.
            Sincerely,
                                      Robert P. Casey, Jr.,
                                                      U.S. Senator.
                                 ______
                                 
                     Congress of the United States,
                                  House of Representatives,
                                      Washington, DC 20515,
                                                  January 16, 2014.
Hon. Tom Harkin, Chairman,
Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Chairman Harkin and Ranking Member Alexander: I write in continued 
support of the Gaining Early Awareness and Readiness for Undergraduate 
Programs (GEAR UP). Signed into law by President Clinton in October 
1998, GEAR UP has positively impacted the lives of students of all 
ethnic and racial backgrounds throughout 49 States and the U.S. 
territories. To date, the program has served approximately 12 million 
students, with an average of 700,000 low-income students a year.
    The proven model starts early in high-poverty middle schools and 
follows students through high school and into their first year of 
college. Incorporating scholarship funds, Advanced Placement classes, 
financial literacy, and college visits, GEAR UP builds college-going 
cultures in schools where even high school graduation cannot be taken 
for granted. A distinguishing characteristic of the program, GEAR UP 
serves all students in a grade (or cohort) understanding that all 
students possess the potential to succeed academically.
    Recognizing the benefits of this program, the New America 
Foundation, in their Rebalancing Resources and Incentives in Federal 
Student Aid report last year, called GEAR UP the ``most promising'' 
program ``aimed at raising the college aspirations and improving the 
academic preparation of disadvantaged students'' and called for 
``triple funding for GEAR UP.'' Although short of triple funding, the 
program will receive a $15.2 million increase in funding for fiscal 
year 2014.
    I wish to thank you for your support of this vital HEA program over 
the years, and I welcome the opportunity to discuss ways in which to 
make it better. If you have any questions or concerns, please contact 
Jared Bass in my office at 202-225-4001 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4822293a2d2c662a293b3b08252921246620273d3b2d662f273e66">[email&#160;protected]</a>
            Very truly yours,
                                              Chaka Fattah,
                                                Member of Congress.

    [Whereupon, at 12:05 p.m., the hearing was adjourned.]

                                  [all]

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
